<html>
<title> - SOLVING THE CLIMATE CRISIS: OPPORTUNITIES IN AGRICULTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]







                      SOLVING THE CLIMATE CRISIS:
                      OPPORTUNITIES IN AGRICULTURE

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 30, 2019

                               __________

                           Serial No. 116-13




              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-635                     WASHINGTON : 2020 
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov 
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
    Prepared Statement...........................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     4

                               WITNESSES

Jennifer Moore-Kucera, Ph.D., Climate Initiative Director, 
  American Farmland Trust
    Oral Statement...............................................     5
    Prepared Statement...........................................     7
Fred Yoder, Corn, Soybean & Wheat Farmer; Co-Chair, Solutions 
  from the Land
    Oral Statement...............................................    16
    Prepared Statement...........................................    17
Tina Owens, Sr. Director, Agriculture Funding & Communication, 
  Danone North America
    Oral Statement...............................................    21
    Prepared Statement...........................................    23
Viral Amin, Vice President for Commercial Development & Strategy, 
  DTE Energy Resources
    Oral Statement...............................................    26
    Prepared Statement...........................................    28

                       SUBMISSIONS FOR THE RECORD

Letter from Defenders of Wildlife, submitted for the record by 
  Ms. Castor.....................................................    50
Report, Climate Mitigation through Agricultural Productivity, 
  Innovation, and Trade, submitted for the record by Ms. Castor..    52
Report, IPCC, 2014: Climate Change 2014: Synthesis Report. 
  Contribution of Working Groups I, II and III to the Fifth 
  Assessment Report of the Intergovernmental Panel on Climate 
  Change, submitted for the record by Mr. Graves.................    54
Chart, C02 Emissions Reductions, 2005-2017, from Global Carbon 
  Atlas, submitted for the record by Mr. Graves..................    54
Chart, California's Crude Oil Imports, by Source, 2014-2018, data 
  sourced from California Energy Commission, submitted for the 
  record by Mr. Graves...........................................    55
Article from Washington Examiner, ``Why Natural Gas from Putin's 
  Russia Has to Be Imported to New England,'' submitted for the 
  record by Mr. Graves...........................................    55
Letter from Sens. Maria Cantwell, Robert Menendez, Chuck Schumer, 
  and Ed Markey to President Trump, submitted for the record by 
  Mr. Graves.....................................................    55

                                APPENDIX

Questions for the Record from Hon. Kathy Castor to Jennifer 
  Moore-Kucera...................................................    55
Questions for the Record from Hon. Kathy Castor to Tina Owens....    59
Questions for the Record from Hon. Garret Graves to Tina Owens...    59
Questions for the Record from Hon. Garret Graves to Fred Yoder...    63
Questions for the Record from Hon. Garret Graves to Viral Amin...    64

 
        SOLVING THE CLIMATE CRISIS: OPPORTUNITIES IN AGRICULTURE

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2019

                     U.S. House of Representatives,
                    Select Committee on the Climate Crisis,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 2:35 p.m., in Room 
210, Cannon House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Bonamici, Brownley, 
Huffman, Casten, Graves, Griffith, Palmer, Carter, and Miller.
    Also Present: Representative Pingree
    Ms. Castor. The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    Without objection, Representative Chellie Pingree, the 
gentlewoman from Maine, shall be permitted to join the 
committee on the dais and be recognized for questioning of 
witnesses.
    Welcome, everyone. Today we will explore how American farms 
can be part of climate solutions and examine climate smart 
agricultural practices that can reduce greenhouse gas emissions 
and, at the same time, increase soil health and carbon 
sequestration in agricultural lands, all while helping make 
farms more resilient to the impacts of climate change. I would 
like to recognize myself now for 5 minutes for an opening 
statement.
    Well, last week the Select Committee on the Climate Crisis 
began exploring natural climate solutions. Nature gives us 
effective and inexpensive opportunities to keep our air and 
water clean and to reduce carbon pollution. Today, we will 
discuss similar opportunities in agriculture and how farmers 
are contributing to climate solutions and can do more.
    Farmers are on the front lines of the climate crisis. 
Earlier this year, the midwest experienced extreme rains 
followed by severe winds and blizzard conditions across the 
region. The effects were devastating. The storms decimated 
livestock, flooded some fields for months, and left millions of 
acres unable to be planted. Some areas along the Missouri River 
are still flooded now 7 months later.
    Similar stories can be told in other parts of our nation, 
whether it is fires in the west or hurricanes in the southeast. 
In fact, extreme weather conditions made the past year one of 
the worst agricultural years in decades. The climate crisis is 
increasingly putting America's agriculture at risk through 
harsher floods, longer droughts, unexpected frosts, and other 
extreme weather events. You know, anyone who eats should care 
about the climate crisis.
    In August, with Fred Yoder, I visited with Florida 
agriculture leaders that included citrus, strawberry, and dairy 
farmers, timber, and ranching interests, along with 
agricultural extension scientists from the University of 
Florida, and they advised me that rising temperatures and 
extreme events are impacting their operations and that they 
need help adapting.
    And they impressed upon me that they also want to be part 
of the solution to the climate crisis, and they are not alone. 
As farmers across America increasingly wrestle with the impacts 
of higher temperatures, they are also looking for opportunities 
to help solve the climate crisis. Through land management 
strategies and smart partnerships, they can have an enormous 
impact. America's farms are uniquely situated to become 
powerful carbon sinks, all while becoming more resilient to the 
impacts of severe weather events.
    In the United States, agriculture is responsible for nearly 
10 percent of annual greenhouse gas emissions which primarily 
come from nitrogen fertilizer applications and livestock. But 
through innovative and proven conservation practices that we 
will hear about today, they can reduce these emissions.
    And farmers are already doing a lot to combat the climate 
crisis, and we must invest in them to do even more. Climate 
smart agricultural practices such as reducing tillage, planting 
cover crops, and diversifying crop rotations can increase 
farmlands' potential to sequester carbon and mitigate climate 
change. These practices often improve soil health and can also 
reduce costs, increase yields, and make farms more resilient to 
the impacts of extreme weather.
    One of the most important things we can do to fight the 
climate crisis is to protect our farmlands. In the last several 
decades, we have lost millions of acres of agricultural lands 
to development. Protecting current farmland from development 
reduces the pressure to convert natural areas to new cropland, 
leaving intact the forests, the grasslands and wetlands to 
provide the climate benefits that we discussed last week.
    Congress has already taken some steps to incentivize 
climate smart agricultural practices. Congressionally 
authorized USDA programs such as the Conservation Stewardship 
Program and the Environmental Quality Incentives Program offer 
farmers technical and financial assistance to increase 
conservation activities.
    The Conservation Reserve Program pays farmers to 
voluntarily retire land from production for less resource-
intensive uses, and the Agriculture Conservation Easement 
Program permanently protects farmlands through agricultural 
conservation easements.
    Congress passed important improvements in the 2018 Farm 
Bill which increased and expanded upon these initiatives. The 
USDA also administers the Rural Energy Savings Program and the 
Renewable Energy for America Program which helps support energy 
efficiency and renewable energy in rural communities. And, of 
course, the renewable fuel standards and federal tax incentives 
for wind and solar have provided sustained economic benefits to 
farmers in rural counties across the country, but there is more 
work to do.
    We can help the agricultural sector increase their critical 
role in carbon storage, and we can help farmers maintain and 
increase their profitability while also helping to solve the 
climate crisis. So today we have experts here who are going to 
help us develop those solutions and help us turn all of these 
things into reality.
    At this time, I will recognize--since Mr. Graves is not 
here, Mr. Griffith, if you would like to make any opening 
comments, you are welcome, and Mr. Graves will still get his 
opportunity when he arrives.
    [The statement of Ms. Castor follows:]
                               __________

              Opening Statement (As Prepared for Delivery)

                    Rep. Kathy Castor (D-FL), Chair

           U.S. House Select Committee on the Climate Crisis

      ``Solving the Climate Crisis: Opportunities in Agriculture''

                            October 30, 2019

    Last week, our committee began exploring natural climate solutions. 
Nature gives us effective and inexpensive opportunities to keep our air 
and water clean and to reduce carbon pollution. Today, we will discuss 
similar opportunities in agriculture and how farmers are contributing 
to climate solutions--and can do more.
    Farmers are on the front lines of the climate crisis. Earlier this 
year, the Midwest experienced extreme rains followed by severe winds 
and blizzard conditions across the region. The effects were 
devastating: the storm decimated livestock, flooded some fields for 
months, and left millions of acres unable to be planted. Some areas 
along the Missouri River are still flooded now--seven months later.
    Similar stories can be told in other parts of our nation, whether 
it's fires in the West or hurricanes in the Southeast. In fact, extreme 
weather conditions made the past year one of the worst for agriculture 
in decades. The climate crisis is increasingly putting America's 
agriculture at risk, through harsher floods, longer droughts, 
unexpected frosts, and other extreme weather events. Anyone who eats 
should care about the climate crisis.
    In August, I visited with Florida agriculture leaders that included 
citrus, strawberries, dairy, timber and ranching and the University of 
Florida ag extension scientists. The farmers and ranchers advised me 
that rising temperatures and extreme events are impacting their 
operations and they need help adapting, and they impressed upon me that 
they want to be part of the solution to the climate crisis.
    They are not alone. As farmers across America increasingly wrestle 
with the impacts of higher temperatures, they're also looking for 
opportunities to help solve the climate crisis. Through land management 
strategies and smart partnerships, they can have an enormous impact. 
America's farms are uniquely situated to become powerful carbon sinks, 
all while becoming more resilient to the impacts of severe weather 
events.
    In the United States, agriculture is responsible for nearly 10 
percent of annual greenhouse gas emissions, which primarily come from 
nitrogen fertilizer application and livestock. But through innovative 
and proven conservation practices that we'll hear about today, they can 
reduce these emissions.
    Farmers are already doing a lot to combat the climate crisis, and 
we must invest in them to help them do even more. Climate-smart 
agricultural practices, such as reducing tillage, planting cover crops, 
and diversifying crop rotations, can increase farmland's potential to 
sequester carbon and mitigate climate change. These practices to 
improve soil health can also reduce costs, increase yields, and make 
farms more resilient to the impacts of extreme weather.
    One of the most important things we can do to fight the climate 
crisis is protect our farmlands. In the last several decades, we have 
lost millions of acres of agricultural lands to development. Protecting 
current farmland from development reduces the pressure to convert 
natural areas to new cropland, leaving intact the forests, grasslands, 
and wetlands to provide the climate benefits we discussed last week.
    Congress has already taken steps to incentivize climate-smart 
agricultural practices. Congressionally-authorized USDA programs--such 
as the Conservation Stewardship Program and the Environmental Quality 
Incentives Program--offer farmers technical and financial assistance to 
increase conservation activities. The Conservation Reserve Program pays 
farmers to voluntarily retire land from production for less resource-
intensive uses. And the Agricultural Conservation Easement Program 
permanently protects farmland through agricultural conservation 
easements. Congress also passed important improvements in the 2018 Farm 
Bill, which increased and expanded upon these initiatives.
    The USDA also administers the Rural Energy Savings Program and the 
Renewable Energy for America Program which help support energy 
efficiency and renewable energy in rural communities. And, of course, 
the Renewable Fuels Standard and federal tax incentives for wind and 
solar have provided sustained economic benefits to farmers and rural 
counties across the country.
    But there is still work to do.
    We can help the agricultural sector increase their critical role in 
carbon storage. And we can help farmers maintain and increase their 
profitability, while also helping solve the climate crisis. Today we'll 
explore ways Congress can help make this a reality.

    Mr. Griffith. Well, I appreciate that, Madam Chair, but I 
anticipate that Ranking Member Graves will be here shortly.
    Ms. Castor. Okay. Well, if the witnesses don't mind, when 
he arrives, we may break in between witnesses and have him give 
some opening statements, or he might want to just jump right 
into the questions as well.
    So without objection, members who wish to enter opening 
statements into the record may have 5 business days to do so.
    Now we will move on to our terrific panel before us today. 
I will introduce each of you, and then we will go one by one 
with testimony.
    First is Dr. Jennifer Moore-Kucera. She is the Climate 
Initiative Director at American Farmland Trust. She oversees 
their efforts to help states develop innovative policies and 
programs that can maximize agriculture opportunities to combat 
the climate crisis. Prior to joining AFT, she served in USDA's 
Natural Resource Conservation Service as west region soil 
health team leader and as the co-director for the USDA 
northwest climate hub.
    Next, my good friend, Mr. Fred Yoder, is a fourth 
generation farmer. He grows corn, soybeans, and wheat in Ohio 
on his family's farm and operates a retail seed business. He is 
also the co-chair of Solutions for the Land and advocates for 
agriculture solutions to sustain productive, enhance climate 
resilience, and help the United States reach sustainable 
development goals.
    Next, Ms. Tina Owens is the Senior Director of Agriculture 
Funding and Communication at Danone North America. Her work 
focuses on regenerative agriculture practices and financing. 
She has spent 2 decades leading sustainability and strategic 
sourcing in the food industry.
    Next, Mr. Viral Amin is the Vice President of Commercial 
Development and Strategy at DTE Energy Resources. DTE Energy is 
a diversified energy company and develops renewable energy 
services projects, including a dairy-based renewable gas 
processing facility in Wisconsin.
    Before we turn to you, Dr. Moore-Kucera, we want to welcome 
the ranking member, and if you would like 5 minutes to make 
opening remarks.
    Mr. Graves. Thank you for not late shaming me too much. I 
apologize for being late, but thank you all for being here.
    I just very quickly want to say that I appreciate you all 
being here today. Agriculture is a very important opportunity, 
very important natural resource managers that have the 
opportunity, as I indicated, to be significant participants in 
our efforts to sequester greenhouse gases.
    If you look across the globe, approximately, I guess the 
average for agriculture is emitting about 24 percent of the 
greenhouse gases in different countries. In the United States, 
it is about 8 percent, indicating it is a more efficient 
agricultural practice here in the United States which does 
support our efforts to export agricultural products because 
globally, that helps to reduce greenhouse gas emissions when 
you look at global averages.
    It is similar to the policies that we have discussed in 
this committee in regard to natural gas. U.S. natural gas, 
according to the National Energy Technology Laboratories, is 
over 40 percent cleaner than Russian natural gas when supplied 
to European and Asian countries. So once again, using U.S. gas 
results in lower greenhouse gas emissions globally.
    Do we need to do a better job implementing best management 
practices and investing in R&D to ensure that we are maximizing 
opportunities with our farmers with agricultural lands? 
Absolutely. To figure out how we do a better job enhancing 
sequestration and do it in a way that is complementary to the 
objectives of our farming community.
    So with that, I am going to yield back, and thank you Madam 
Chair.
    Ms. Castor. All right. Dr. Moore-Kucera, you are recognized 
for 5 minutes.

  STATEMENTS OF DR. JENNIFER MOORE-KUCERA, CLIMATE INITIATIVE 
 DIRECTOR, AMERICAN FARMLAND TRUST; FRED YODER, CORD, SOYBEAN, 
   AND WHEAT FARMER, CO-CHAIR, SOLUTIONS FROM THE LAND; TINA 
 OWENS, SR. DIRECTOR, AGRICULTURE FUNDING, AND COMMUNICATION, 
 DANONE NORTH AMERICA; VIRAL AMIN, VICE PRESIDENT, COMMERCIAL 
         DEVELOPMENT AND STRATEGY, DTE ENERGY RESOURCES

             STATEMENT OF DR. JENNIFER MOORE-KUCERA

    Dr. Moore-Kucera. Chair Castor, Ranking Member Graves, and 
honorable members of the committee, I am Jennifer Moore-Kucera, 
the Climate Initiative Director for American Farmland Trust. An 
organization founded 40 years ago to help protect farmland, 
advance sound farming practices, and keep farmers on the land. 
I thank you for the opportunity to testify and applaud the 
committee for exploring the critical issue of agriculture and 
climate change.
    Our nation's crop and ranch lands offer immediately 
available, low cost, and proven ways to address climate change 
by sequestering carbon and reducing greenhouse gas emissions. 
No other option to combat climate change comes with more of the 
co-benefits we need for a sustainable future. It is imperative 
we work across the political spectrum to make this opportunity 
a reality. Our farms and our futures depend upon it.
    Climate change threatens lives, livelihoods, our food 
security, and our economy, and is no longer a distant problem. 
Record high temperatures, drought, wildfires, storms, and 
floods are becoming more intense and frequent. Collectively, 
these events negatively impact our crops, soil, and water. You 
are probably already seeing one of more of these impacts in 
your own districts. As we speak, northern California is 
suffering from intense wildfires in what has become a new 
normal.
    Agriculture contributes to these challenges as a net 
emitter of more than 580 million metric tons of carbon dioxide 
equivalents per year. However, these emissions can be 
substantially reduced or even offset with continued adoption of 
what are commonly referred to as regenerative climate smart or 
soil health practices.
    Two proven low-cost soil health practices are cover crops 
and conservation tillage. Working with the USDA colleagues, we 
estimate that if U.S. farmers adopted cover crops on 25 percent 
of our cropland and conservation tillage on 100 percent of our 
tillable acres, we could reduce nearly 150 million metric tons 
of carbon dioxide equivalents per year or one quarter of the 
total U.S. agricultural emissions, and there are numerous other 
practices available that can further reduce these levels which 
we can discuss during questions.
    AFT recently documented the co-benefits of soil health 
practices on four farms from across the U.S. After implementing 
new soil practices, they found that in addition to reducing 
their greenhouse gas emissions by an average of 379 percent, 
these same farms significantly cut nitrogen, phosphorus, and 
sediment losses and increased yields. The three row crop 
farmers increased their average net income by $42 per acre per 
year.
    These gains, however, are not possible unless we keep 
farmland as farmland. According to USDA, over 25 million acres 
of farm and ranch land were converted to development between 
1982 and 2015. Once land is lost to development, we lose the 
ability to further sequester carbon, and the remaining lands 
are subject to increased pressures. Encouraging agricultural 
easements and compact urban growth are two ways to protect 
farmland while reducing transportation emissions.
    Today I am here as a scientist, not as a policy expert. 
Nonetheless, I want to share some perspectives from AFT policy 
experts. We call on Congress to seize the opportunities and 
make agriculture a key partner in fighting climate change. This 
could be achieved through a comprehensive climate bill or 
integrated into a transformational farm bill.
    First, Congress should expand upon the successful voluntary 
Farm Bill conservation programs. Historically, these programs 
have more demand than available funding.
    Second, we encourage Congress to leverage other Federal 
programs and State-level innovations such as the pilot programs 
in Iowa and Illinois that offer reductions on crop insurance 
premiums for cover crop adoption.
    Third, we need additional research on practices that help 
address climate change and quantify their impacts. This 
knowledge will inform farmers and ensure good, sound public 
investments.
    Lastly, we must find new ways to fund these practices and 
reward farmers for reducing greenhouse gases. This can include 
engaging consumers and private companies through environmental 
markets, supply chain management, and labels.
    Producers are struggling to make ends meet. Such efforts 
are models for encouraging best practices and keeping producers 
viable. Our nation's farm and ranch lands have numerous 
scalable opportunities to address climate change with the co-
benefits we need for our future. We at AFT are excited to 
continue this conversation and serve as a resource as you move 
forward.
    Thank you once again for the opportunity to testify.
    [The statement of Dr. Moore-Kucera follows:]
                               __________

               Testimony of Jennifer Moore-Kucera, Ph.D.

          Climate Initiative Director, American Farmland Trust

   Before the U.S. House of Representatives Select Committee on the 
                             Climate Crisis

      ``Solving the Climate Crisis: Opportunities in Agriculture''

                            October 30, 2019

    Chair Castor, Ranking Member Graves, and Honorable Members of the 
House Select Committee on the Climate Crisis. I am Jennifer Moore-
Kucera, the Climate Initiative Director for American Farmland Trust. 
Our nonprofit organization was founded 40 years ago to help protect 
farmland, advance sound farming practices, and keep farmers on the 
land.
    I thank you for the opportunity to testify and I applaud the 
committee for exploring the critical issue of agriculture and climate 
change.
    I want to open by saying that addressing climate change by 
promoting climate-smart, regenerative agricultural practices can be a 
win-win-win. We can ensure our nation's food security, improve our 
environment, and enhance economic returns to farmers and ranchers. 
Moreover, we already have the tools to reduce, or even eliminate, net 
greenhouse gas (GHG) emissions, and scientists and farmers are coming 
up with new innovations all the time. Along the way, we can make 
farmers and ranchers more productive, more profitable, and more 
resilient to the ups and downs of weather and markets. And finally, all 
of society will reap numerous additional benefits, including cleaner 
water, more wildlife habitat, and more productive soils that can keep 
growing food for generations to come. Not many sectors of the economy 
have the positive opportunities that we do in agriculture, so we need 
to work together, across the political spectrum, to seize these 
opportunities.
                      climate risks to agriculture
    There is a lot at stake. Too often we think of climate change as an 
abstraction, something that will happen in the far-off future. But for 
America's farmers and ranchers, climate change is already a daily 
reality. Extreme weather events, including record high temperatures and 
drought in parts of our country, threaten crop productivity, stress 
water supplies, and increase wildfire risks, while more frequent and 
intense storms in other areas wash away the soil and increase flooding. 
Collectively, these events negatively impact our crops and the soil and 
water resources we depend on. They also threaten livestock, wildlife, 
people, national food security, and our economy.
    Within just the past 22 years, we have experienced 20 of the 
hottest years on record (WMO, 2019). Increased temperatures are 
predicted to impact crop yields and germination and harvest timing. 
These impacts may be positive or negative depending on the crop and 
location (Roesch-McNally et al., 2019). Whereas some crops might 
benefit from a longer growing season, the species and varieties of 
crops grown in an area shift, resulting in the need for new equipment, 
knowledge, and resources to maintain viability. Other impacts include 
greater risks of disease, insect, and weed pressures due to higher 
temperatures, longer growing seasons, and more frost-free days, which 
will increase dependence on inputs such as fungicides, herbicides, and 
insecticides.
    In addition to higher temperatures, more extreme weather events are 
projected. Some areas will experience increased duration, frequency, 
and intensity of drought, whereas other areas will be subjected to 
intense storms, leading to major flooding. So-called 500-year floods 
have become 100-year floods. This makes planting and harvest more 
difficult, as seen in the Midwest this year when unusually wet 
conditions led to one of the latest planting seasons on record (Rippey, 
2019). These events also lead to soil loss from erosion and flooding of 
farm fields, compounding water quality problems.
    Other concerns, especially in western states, involve the reduction 
in snowpack amount and earlier peak flows (snow melt), which would 
reduce water availability during the growing season (Roesch-McNally et 
al., 2019). Heavy and earlier spring rains or flood events will delay 
planting or force farmers to perform field operations (e.g., tillage, 
planting) when the soil is susceptible to compaction or erosion. Major 
flooding also imperils infrastructures such as roads, railroads, barge 
landings, and buildings necessary for storage and crop processing. 
Higher temperatures and increased drought increase stress on both 
livestock and crops, thus requiring greater inputs to maintain their 
health.
    Increased carbon dioxide (CO2) levels will have both positive and 
negative effects on agriculture. Additional CO<INF>2</INF> will 
stimulate growth in some crops, such as soybean and wheat, and may 
provide some protection against moderate drought. However, increasing 
CO<INF>2</INF> levels will also stimulate weed growth, potentially 
increasing herbicide use (Ziska, 2003). In addition, higher 
CO<INF>2</INF> levels cause plants to take up less nutrients, leading 
to less nutritious feed in the trough and food on our plate (Myers et 
al., 2014).
    Finally, drought and high temperatures will result in increased 
wildfire risk which threatens homes, fields, livestock, wildlife, and, 
tragically, human life. Smoke damage for certain susceptible specialty 
crops (e.g., wine grapes) has resulted in decreased quality and can 
negatively affect farmers and farm workers exposed to unhealthy air 
conditions. Farmers and their neighbors in northern California are 
suffering from intense wildfires at the time of this testimony, in what 
has unfortunately become a new normal. Chances are that all of you are 
already seeing one or more of these impacts within your own districts.
                 agriculture's greenhouse gas emissions
    Agricultural practices, in part, contribute to total greenhouse gas 
(GHG) emissions in the United States (US). The most recent EPA report 
indicates that agriculture releases about 582 million metric tons (MMT) 
of carbon dioxide equivalents (CO<INF>2</INF>e), which translates to 
approximately 9% of total US emissions (USEPA, 2019). \1\ In contrast 
to other production sectors, which are dominated by energy-related 
CO<INF>2</INF> emission sources, the bulk of agriculture's impact on 
climate change is due to nitrous oxide (N2O) and methane (CH4) 
emissions from fertilizer application, manure handling, and enteric 
fermentation from livestock (USEPA, 2019).
---------------------------------------------------------------------------
    \1\ CO<INF>2</INF>e refers to the carbon dioxide equivalent, 
because methane (CH<INF>4</INF>) and nitrous oxide (N<INF>2</INF>O) are 
converted to their CO<INF>2</INF> equivalent, in terms of their global 
warming potential.
---------------------------------------------------------------------------
    The following percentages exclude the 40.1 MMT CO<INF>2</INF> from 
fuel combustion in agriculture to focus on the contribution of 
agricultural management as reported in the agriculture chapter (Chapter 
5) of the US EPA 2019 inventory report:
          <bullet> 53% of agriculture's GHG contributions are in the 
        form of nitrous oxide (N2O) from agricultural soil management 
        (activities such as fertilizer application, growing N-fixing 
        plants), drainage of organic soils and irrigation practices, 
        manure management, and field burning of agricultural residues. 
        Nitrous oxide stays in the atmosphere about 114 years and is 
        almost 300 times more efficient at trapping heat than 
        CO<INF>2</INF> (IPCC, 2007).
          <bullet> 46% of agricultural emissions are from methane (CH4) 
        primarily from enteric fermentation from livestock and manure 
        management, as well as rice cultivation and field burning of 
        agricultural residues. Methane's lifetime in the atmosphere is 
        only 12 years, but it is 25 times more efficient at trapping 
        heat than CO<INF>2</INF> over a 100-year period (IPCC, 2007).
          <bullet> Unlike other sectors, only 1.5% of agriculture's GHG 
        contributions are from Carbon Dioxide (CO2), predominantly from 
        urea fertilization and liming.
                   agriculture as a climate solution
    Although agriculture currently is a net source of GHG emissions, 
farmers and ranchers can be some of our nation's greatest allies in 
fighting climate change. There are numerous crop land and grazing land 
management practices that are known to increase the amount of carbon 
plants can capture and ultimately store belowground in the soil. This 
process is called soil carbon sequestration.
    In fact, soils store 2-3 times more CO<INF>2</INF> than the 
atmosphere and 2-5 times more C than that stored in vegetation (IPCC, 
2013). Unfortunately, between the late 1880s to 1985, agricultural 
soils have lost half or more of the soil organic carbon (SOC) that was 
present prior to industrialization (Lal, 2004). Since 1985, increased 
yields, reduced tillage intensity, and improved genetics have resulted 
in many soils beginning to increase soil carbon levels, and there is 
much more we can do! With more than 900 million acres of agricultural 
land in the US, we have an enormous opportunity to rebuild soil organic 
carbon, sequester atmospheric carbon, and reduce N<INF>2</INF>O and 
CH<INF>4</INF> emissions as well. Some estimates suggest that if we 
were able to adequately address economic, social, and technical 
barriers to implementing best soil management practices, US croplands 
have the potential to sequester 1.5 billion to 5 billion metric tons of 
CO<INF>2</INF>e per year for 20 years (Sanderman et al., 2017; Zomer et 
al., 2017). Moreover, the same agronomic practices that increase carbon 
sequestration also help to mitigate flood events, protect water 
quality, recharge groundwater, and increase resilience to drought 
(Lehman et. al, 2015).
    Rebuilding soil health is crucial to sustaining agriculture, 
enhancing the profitability of farmers and ranchers, and combatting 
climate change. Soil health is defined by USDA-Natural Resource 
Conservation Service (NRCS) as ``the continued capacity of a soil to 
function as a vital living ecosystem that sustains plants, animals, and 
humans.'' Healthy, high-functioning soils:
          (1) Produce food, fuel, fiber, and medicinal products using 
        management strategies that maintain or enhance environmental 
        quality;
          (2) Store, filter, and release water, and thus protect or 
        improve water quality;
          (3) Are resilient to environmental disturbances such as 
        drought, fire, floods, and temperature extremes;
          (4) Resist diseases, pests, and pathogens, thus reducing the 
        reliance on pesticides;
          (5) Store and cycle nutrients internally, reducing the 
        reliance on external inputs and the potential for off-site 
        movement of nutrients into the air and water;
          (6) Store and cycle carbon and modify other greenhouse gases, 
        helping to reduce climate change; and,
          (7) Maintain biodiversity and habitat, which is critical to 
        all above functions.
    Recently, the USDA-NRCS Soil Health Division has outlined four soil 
health principles to improve soil function for a variety of ecosystem 
outcomes, but they also apply to building resilient agricultural 
systems that sequester C and reduce GHG emissions (Roesch-McNally et 
al., 2019). The four principles are:
          (1) Minimize disturbance (typically physical disturbance is 
        the major focus, with a target to reduce tillage depth, 
        intensity, and frequency);
          (2) Maximize soil cover, often through mulching, reduced 
        tillage, residue retention, and cover crops;
          (3) Maximize the continuous presence of roots, which is 
        typically achieved through cover crop planting but also longer 
        rotations, forage, and biomass plantings, and incorporation of 
        perennial crops into the rotation; and
          (4) Maximize biodiversity through practices similar as those 
        described in #3; but can also include the integration of 
        livestock into the cropping system and diversifying cover crop 
        mix or more diversified crop rotations.
    In addition to sequestering carbon, healthy soils absorb more water 
during heavy rains, which reduces runoff. They also offer better 
resilience during periods of drought because the land holds more water. 
Healthy soils also can help farmers increase yields, increase yield 
stability, and be more productive in the long term. Ultimately, 
building soil fertility can reduce farmers' dependence on fertilizers, 
saving them money and improving their bottom line. Soil health systems 
also offer a wide range of ecologically important co-benefits (Figure 
1).
    These practices can be put in place separately, but ideally 
producers will implement a suite of practices to optimize benefits and 
co-benefits. For example, the benefits of cover crops were detectable 
more quickly with no-till management compared with conventional tillage 
(Olson et al., 2014). Additionally, cover crops have been reported to 
increase economic gains when farmers transition to no-till practices in 
both corn and soybeans (Myers et al., 2019).
Estimated GHG Benefit from Cover Cropping and Conservation Tillage
    Among the soil health practices promoted by American Farmland 
Trust, NRCS, Soil and Water Conservation Districts, and numerous other 
organizations across the nation, reduced tillage and cover cropping are 
the two most popular and studied.
    According to the 2017 USDA AgCensus, there are 396 million acres of 
total cropland and 401 million acres of grazing land in the US 
(www.nass.usda.gov/AgCensus/). Of the total cropland reported, 15.3 
million acres have adopted cover cropping, 104 million acres are in no-
till and 97.5 million acres have adopted reduced tillage practices that 
disturb the soil less than conventional till.
    Although there are many benefits of cover crop and conservation 
tillage adoption, I would like to focus on their impact on GHG 
emissions. To estimate the GHG reduction benefit from these key 
conservation practices, American Farmland Trust--in collaboration with 
the USDA Agricultural Research Service--used data from the 2017 
AgCensus along with estimated GHG reduction coefficients reported in 
the USDA COMET-Planner tool (www.comet-Planner.com). Based on these 
data, our preliminary calculations estimate that relative to no cover 
cropping, current adoption of 15.3 million acres of cover cropping have 
potentially reduced emissions between 4.2 and 6.3 million metric tons 
(MMT) CO2e per year.
    Recognizing that not all the remaining cropland is suitable or 
appropriate for cover cropping, adopting cover crops on even 25% of the 
remaining cropland (e.g., about 95 million acres) can further reduce 
CO<INF>2</INF>e emissions between 22.6 and 31.9 MMT per year. Combining 
current cover crop adoptees and this conservative estimate of future 
adoption would reduce GHG emissions by an estimated 26.8 to 38.2 MMT of 
CO2e per year.
    Similarly, we estimate that the current adoption of conservation 
tillage on 201.5 million acres has reduced CO2e between 59.1 and 70.8 
MMT per year. Expanding the current adoption levels and converting the 
remaining 79.9 million acres that are in intensive till to reduced till 
or no-till can reduce an additional 12.6 to 39.4 MMT per year.
    If we add up the current and projected future adoption of cover 
crops (25%) with no-till or reduced till practices (100%), our nation 
could reduce GHG emission by up to 148.5 MMT CO2e per year. This 
translates to approximately 25% of the total ag GHG emissions and that 
doesn't include what can be achieved through the addition of best 
practices for grazing land management and livestock/manure management. 
This 148.5 MMT CO<INF>2</INF>e is equivalent to removing 31.5 million 
passenger vehicles from the road each year (https://www.epa.gov/energy/
greenhouse-gas-equivalencies-calculator).
Additional Conservation Practices Provide Further GHG Reductions
    Cover crops and conservation tillage are just two of the many 
conservation practices available on croplands. There are numerous 
nutrient management options such as replacing synthetic nitrogen 
fertilizers with composts or manure, switching sources of synthetic 
nitrogen from anhydrous ammonia to urea, improved timing of fertilizer 
application, and variable application rates within the field (Fargione 
et. al., 2018). Other practices include conservation crop rotations, 
improved manure management, biochar, and mulching. We currently are 
working on estimating the GHG benefits from many of these practices 
using the same approach we report on for croplands above.
    Many of these practices can be economically beneficial for farmers, 
but their adoption involves real and perceived risk. AFT has worked on 
the ground in 18 states to help farmers optimize their fertilizer rates 
with risk free yield guarantees. Farmers reported high satisfaction 
with the program and 85% said they have continued to use the approach 
on their farm.
    Grazing lands make up about 45% of all US agricultural lands. 
Although they typically are less suitable for crop production, they are 
ideally suited for livestock. These soils store vast amounts of carbon 
and, when managed properly, provide numerous ecosystem services such as 
wildlife and pollinator habitat and water storage and drainage. Similar 
to croplands, there are many conservation practices available for 
grazing lands. Ensuring sufficient rest periods between grazing events 
can maximize plant productivity and, hence, the amount of carbon fixed 
from the atmosphere. In addition, studies have shown that fertilizing 
California rangeland with compost could sequester large amounts of 
carbon (Ryals et al., 2015).
    Other landscape-level considerations with major GHG reduction 
potential include establishing trees or shrubs along field borders, 
riparian forest buffers, hedgerow plantings, alley cropping, and 
establishing strips of permanent grass and legume covers to absorb 
rainfall and reduce erosion. All of these practices bring huge co-
benefits, including supporting pollinators and other beneficial 
insects, creating wildlife habitat, and enabling native plant species 
to thrive. In Iowa, research has shown that planting strips of native 
prairie plants within existing crop fields can build soil carbon while 
substantially reducing erosion and nutrient loss and supporting 
pollinators and grassland birds (Perez-Suarez et al., 2014; Schulte et 
al., 2017).
    In addition, there are some technological interventions that can 
target key sources of emissions, such as installing methane digesters 
to turn stored manure into an energy source, and feed additives that 
can reduce enteric fermentation emissions from cattle.
    As you can see from this testimony, there are numerous options 
available to support crop and grazing land productivity and 
environmental services like reduced GHG emissions and increased soil 
carbon sequestration. Successful implementation, however, requires 
technical and financial assistance to optimize productivity and GHG 
reductions.
Healthy Soil Case Studies
    The success of these healthy soil practices is not just conceptual. 
With support from an NRCS Conservation Innovation Grant, American 
Farmland Trust staff partnered with four farmers in California, 
Illinois, Ohio and New York to produce easy-to-read, two-page case 
studies showing the excellent return on investment for healthy soil 
practices for a variety of crops (https://www.farmlandinfo.org/soil-
health-case-studies). These farmers implemented steps such as no-till, 
nutrient management, cover crops, compost, and mulching. As a result, 
these farms cut their greenhouse gas emissions by an average of 379% on 
fields selected for the analysis. This means that these fields 
transformed from being net emitters to net reducers of greenhouse 
gases.
    These case studies also illustrate the many benefits associated 
with healthy soil practices. The actions taken by these farmers 
increased yields and profits, stopped soil erosion problems, and 
improved water quality. The farmers saw, on average, increased yields 
of 12%, reduced nitrogen losses of 54%, reduced phosphorus losses of 
81%, and reduced sediment losses of 85%. The average net income 
increase for the three crop farmers was $42 per acre per year. For the 
California almond grower, his net income increased an average $657 per 
acre per year, thanks to the soil health practices.
    Adopting climate-smart agricultural practices is among the least 
costly and most immediate actions that can help reduce greenhouse gas 
emissions on a meaningful scale. Their extensive adoption can serve as 
an important bridge until new climate-friendly energy and 
transportation technologies are developed.
Protection of Farmland as a Climate Strategy
    None of these gains are possible unless we are able keep farmland 
as farmland. According to the USDA, over 25 million acres of farmland 
and ranch land were converted to development between 1982 and 2015. 
Through our ``Farms Under Threat'' project, American Farmland Trust is 
mapping the precise location of this past development, as well as areas 
with the highest threat in the future. This information will help 
towns, counties, and states make smart decisions to protect their 
valuable farmland.
    A growing body of research demonstrates the necessity of protecting 
agricultural lands from development as a key component to any 
comprehensive GHG reduction strategy. Not only does it protect lands 
that can function as carbon sinks, it encourages inward and more 
compact development growth, thereby preventing additional 
transportation emissions and electrical and heating use. American 
Farmland Trust's 2018 ``Greener Fields'' study found that cutting 
California farmland loss by 75% by 2050 (700,000 acres), while 
encouraging compact urban growth, would reduce GHG emissions by 33 tons 
of GHG (per acre per year). That's the equivalent of taking 1.9 million 
cars off the road each year. Protecting farmland also keeps that land 
available for flood and fire mitigation.
    With every acre of farmland we lose, we not only lose the ability 
of that land to grow food and sequester carbon, we put more pressure on 
the remaining land to be farmed more intensely, further reducing 
environmental benefits. And with 40% of U.S. agricultural land expected 
to change hands in the next 15 years due to the age of landowners, we 
need to take full advantage of tools such as easements to ensure that 
as much remains farmland as possible (NASS, ERS, https://farmland.org/
project/farm-legacy).
 congress' role in helping farmers and ranchers address climate change
    I am here today as a scientist, not as a policy expert. 
Nonetheless, I want to share some perspective on these matters from the 
policy experts at American Farmland Trust.
    First, we want to thank Congress for the significant commitments 
made in the 2018 Farm Bill Conservation Title. These important programs 
provide technical assistance and financial incentives for farmers and 
ranchers to protect soil, water, wildlife, and other natural resources 
on privately owned lands and offer a strong starting point for how 
agriculture can be part of the solution to climate change.
    Within the 2018 Farm Bill, Congress included critical additional 
funding for the Agricultural Conservation Easement Program--
Agricultural Land Easements (ACEP-ALE) program, which provides funds to 
enable local and state partners to work with farmers to permanently 
protect their land. This new funding will begin to meet program demand 
and ensure productive agricultural lands remain available to future 
generations of farmers and ranchers and for GHG reduction.
    We also appreciate the additional funding included for the Regional 
Conservation Partnership Program (RCPP). This program enables public 
and private conservation agriculture groups to join with farmers in a 
focused, local area to develop innovative approaches toward shared 
conservation goals.
    Other working lands programs, such as the Environmental Quality 
Incentives Program (EQIP) and Conservation Stewardship Program (CSP), 
are vital tools for farmers and ranchers to implement or enhance 
current conservation practices on their land. They support farmers to 
plant cover crops, reduce tillage, diversify crop rotations, and 
improve grazing management, all of which can reduce greenhouse gas 
emissions. Likewise, studies have shown that land enrolled in the 
Conservation Reserve Program (CRP) rapidly sequesters soil carbon, 
while also providing benefits for wildlife and water quality (Gebhardt 
et al., 1994).
    Such programs give us a foundation to build from. However, more 
must be done to help farmers and ranchers protect their land and 
implement agricultural practices addressing climate change. At a time 
when the farm economy is suffering, ensuring the widespread adoption of 
new practices will require additional incentives, training, and 
capacity.
    American Farmland Trust would like to share a few additional ideas 
on how Congress can help more farmers and ranchers reap the benefits of 
practices that reduce GHG.
    A first step would be to provide additional funding for existing 
Farm Bill conservation programs, such as ACEP-ALE, RCPP, EQIP, CSP, 
CRP, and others. However, both legislation and agency rulemaking could 
be strengthened to encourage GHG reductions in addition to other 
services. Historically, these conservation programs are oversubscribed, 
meaning there is not enough money to support the farmers who actively 
want to improve their operations, and not enough for critical technical 
assistance to help them make changes on their farm. Any farmer or 
rancher who wants to improve their soil health and reduce GHG emissions 
should get the support they need.
    Another opportunity would be to leverage other programs, including 
state soil health efforts. This includes incentives for climate-smart 
practices through the crop insurance program. Cover crops can help 
increase resiliency, which reduces risk. As a result, Iowa and Illinois 
have launched pilot programs offering insurance premium reductions to 
those taking advantage of cover crops. Such a concept should be 
explored at the national level. Expanding low to no-interest loans to 
help farmers implement practices is another option.
    We must also increase support for climate-related agricultural 
research. We have many different practices at our disposal, but ongoing 
research is needed to make them work for farmers in all the unique 
climates, soil types, and production systems where they grow our food. 
The National Academies' 2018 ``Science Breakthroughs to Advance Food 
and Agricultural Research by 2030'' report identifies the soil as one 
of the frontiers of agricultural science. We are just beginning to 
understand its immense potential. To unlock this potential, we need 
further investments in tools and methodologies to quantify and track 
the impacts of management practices on soil carbon storage. We also 
need better quantification of how innovative management practices 
affect emissions of N<INF>2</INF>O and CH<INF>4</INF>. This knowledge 
will be critical to ensuring that public investments in agricultural 
GHG mitigation are sound and provide incentives for the right 
management practices.
    Lastly, we must find new ways to help fund these crucial changes. 
This can include engaging consumers and private companies through 
environmental markets, supply chain management, and labels. American 
Farmland Trust has worked across the country to develop markets for 
carbon and other ecosystem services, such as reductions in nitrogen and 
phosphorus. Now, many companies are becoming engaged in this work as 
they aggressively look for ways to reduce their carbon footprint. These 
local, state, and regional efforts are compelling models for how we can 
provide future funding that rewards best practices and keep farmers and 
ranchers viable as they innovate. More must be done to explore how 
these types of funding models could work nationally.
    As policymakers think about how to address agriculture and climate 
change, we recommend a comprehensive, integrated approach. This could 
be achieved by fully including agriculture in a major climate bill. In 
addition, the next Farm Bill, as the piece of legislation that touches 
on all facets of agriculture, represents a transformational opportunity 
to enact many of these ideas. The most important objective is to ensure 
that the vast potential of agriculture is unleashed as part of any 
broader set of climate solutions.
    The opportunities before us are enormous. Every day, farmers, 
ranchers, and private forest owners make stewardship decisions that 
impact over 1.4 billion acres of land. This is over 70% of the landmass 
of the contiguous 48 states (USDA, 2018). As a society, we must value 
not only the food our farmers and ranchers produce, we must value all 
of the environmental services they can produce for our nation.
                               conclusion
    America's farmers and ranchers are an essential and indispensable 
part of any meaningful plan to address climate change. I thank you once 
again for this opportunity and for elevating the role agriculture can 
play in addressing climate change. Our entire team at American Farmland 
Trust is excited to continue this conversation and to serve as a 
resource as you move forward with this important work.
                               references
    COMET-Planner. 2019. http://comet-planner.com/. Emission reduction 
coefficients for each county were downloaded between July and September 
2019.
    IPCC (2007). Climate Change 2007: The Physical Science Basis EXIT. 
Contribution of Working Group I to the Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change. [S. Solomon, D. Qin, M. 
Manning, Z. Chen, M. Marquis, K.B. Averyt, M. Tignor and H.L. Miller 
(eds.)]. Cambridge University Press. Cambridge, United Kingdom 996 pp.
    Gebhart, D. L., Johnson, H. B., Mayeux, H. S., & Polley, H. W. 
(1994). The CRP increases soil organic carbon. Journal of Soil and 
Water Conservation, 49(5), 488-492.
    Lal, R. (2004). Soil carbon sequestration impacts on global climate 
change and food security. Science, 304(5677), 1623-1627.
    LaRose, J., Myers, R. (2019). Progress Report: Adoption of Soil 
Health Systems Based on Data from the U.S. Census of Agriculture--
Metrics include Cover Crop and No-till Production Practices. Published 
on the Soil Health Institute's website at https://
soilhealthinstitute.org/wp-content/uploads/2019/07/Soil-Health-Census-
Report.pdf; Accessed 8/4/2019.
    Lehman, R. M., et al. (2015). Soil biology for resilient, healthy 
soil. Journal of Soil and Water Conservation 70(1): 12a-18a.
    Myers, S. S., Zanobetti, A., Kloog, I., Huybers, P., Leakey, A. D., 
Bloom, A. J., . . . & Holbrook, N. M. (2014). Increasing CO<INF>2</INF> 
threatens human nutrition. Nature, 510(7503), 139.
    Perez-Suarez, M., Castellano, M. J., Kolka, R., Asbjornsen, H., & 
Helmers, M. (2014). Nitrogen and carbon dynamics in prairie vegetation 
strips across topographical gradients in mixed Central Iowa 
agroecosystems. Agriculture, ecosystems & environment, 188, 1-11.
    Rippey, B. (2019). ``Nation's Wettest 12-Month Period on Record 
Slows Down 2019 Planting Season.'' USDA. June 14, 2019. Accessed 
October 27, 2019. https://www.usda.gov/media/blog/2019/06/14/nations-
wettest-12-month-period-record-slows-down-2019-planting-season.
    Roesch-McNally, G.E., Moore-Kucera, J. Owens, C. (2019). Applying 
Soil Health Management Systems to Reduce Climate and Weather Risks in 
the Northwest. USDA-NRCS Factsheet. Available here: https://
www.climatehubs.oce.usda.gov/hubs/northwest/topic/soil-health-
management-reduce-climate-and-weather-risks-northwest; Accessed 8/3/
2019.
    Ryals, R., Hartman, M. D., Parton, W. J., DeLonge, M. S., & Silver, 
W. L. (2015). Long-term climate change mitigation potential with 
organic matter management on grasslands. Ecological applications, 
25(2), 531-545.
    Sanderman, J., Hengl, T., & Fiske, G. J. (2017). Soil carbon debt 
of 12,000 years of human land use. Proceedings of the National Academy 
of Sciences, 114(36), 9575-9580.
    Schulte, L. A., Mimi, J., Helmers, M. J., Liebman, M., Arbuckle, J. 
G., James, D. E., . . . & Asbjornsen, H. (2017). Prairie strips improve 
biodiversity and the delivery of multiple ecosystem services from 
corn--soybean croplands. Proceedings of the National Academy of 
Sciences, 114(42), 11247-11252.
    US-EPA (2019). United States Environmental Protection Agency. 2019. 
Inventory of U.S. Greenhouse Gas Emissions and Sinks, Chapter 5. 
Agriculture. https://www.epa.gov/ghgemissions/inventory-us-greenhouse-
gas-emissions-and-sinks https://www.epa.gov/ghgemissions/inventory-us-
greenhouse-gas-emissions-and-sinks.
    USDA (2018). United States Department of Agriculture. 2018. 
``Summary Report: 2015 National Resources Inventory,'' Natural 
Resources Conservation Service, Washington, DC, and Center for Survey 
Statistics and Methodology, Iowa State University, Ames, Iowa. http://
www.nrcs.usda.gov/technical/nri/15summar.
    USDA-NASS, 2017. United States Department of Agriculture, National 
Agricultural Statistics Service. 2017 Census of Agriculture. https://
www.nass.usda.gov/Publications/AgCensus/2017/index.php, accessed 
10.20.2019.
    USDA-NASS, 2017. United States Department of Agriculture, National 
Agricultural Statistics Service. 2017 Census Report form Guide. https:/
/www.nass.usda.gov/AgCensus/Report_Form_and_Instructions/
2017_Report_Form/index.php.
    WMO (2019). World Meteorological Organization. ``WMO confirms past 
4 years were warmest on record World Meteorological Organization.'' 
February 6, 2019. Accessed October 27, 2019. https://public.wmo.int/en/
media/press-release/wmo-confirms-past-4-years-were-warmest-record.
    Ziska, L. H. (2003). Evaluation of yield loss in field sorghum from 
a C<INF>3</INF> and C<INF>4</INF> weed with increasing CO<INF>2</INF>. 
Weed Science, 51(6), 914-918.
    Zomer, R. J., Bossio, D.A., Sommer, R., Verchot, L. V. (2017). 
Global Sequestration Potential of Increased Organic Carbon in Cropland 
Soils. Scientific Reports 7(1): 15554-15554.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              glossary of terms (not a comprehensive list)
    The following terms were as defined in the 2017 Census of 
Agriculture--Report form guide:
    Cover crop_a crop planted primarily to manage soil erosion, soil 
fertility, soil quality, water, weeds, pests, and diseases on non-CRP 
acres.
    Intensive tillage leaves less than 15% of crop residue of small 
grain residue. This type of tillage is often referred to as 
conventional tillage. Intensive tillage often involves multiple 
operations with implements such as a mold board, disk, and/or chisel 
plow.
    No-till farming practices is cropland used for production from year 
to year without disturbing the soil through tillage other than 
planting. Do not include as no-till, land that was not planted in 2017 
such as existing orchards, land in berries, nursery stock, or hay 
harvested from existing grassland or alfalfa that was established prior 
to 2017. No-till is an agricultural technique which increases the 
amount of water that infiltrates into the soil and increases organic 
matter retention. In many agricultural regions it can reduce or 
eliminate soil erosion. As explained in LaRose and Myers (2019) ``no-
till, which would include both continuous no-till and rotational no-
till (rotational no-till refers to using no tillage after one crop, 
such as soybeans, but tilling after another crop in the rotation, such 
as after corn.''
    Reduced tillage leaves between 15% and 30% residue cover on the 
soil of small grain residue to conserve moisture and prevent erosion. 
This may involve the use of a chisel plow, field cultivators, or other 
implements.
               american farmland trust soil case studies
    These case studies were developed by American Farmland Trust as 
part of a 2018 USDA Natural Resources Conservation Service Conservation 
Innovation Grant (CIG) project, ``Accelerating Soil Health Adoption by 
Quantifying Economic and Environmental Outcomes & Overcoming Barriers 
on Rented Lands,'' and feature farms in California, Illinois, Ohio and 
New York. The four case studies can be accessed below:
          <bullet> MadMax Farms, Ohio (https://www.farmlandinfo.org/
        sites/default/files/AFT_NRCS_Case%20Niemeyer%20web2.pdf)
          <bullet> Swede Farm LLC, New York (https://
        www.farmlandinfo.org/sites/default/files/
        AFT_NRCS_Case%20Swede%20web2.pdf)
          <bullet> Okuye Farms, California (https://
        www.farmlandinfo.org/sites/default/files/
        AFT_NRCS_Case%20Sauter_web2.pdf)
          <bullet> Thorndyke Farms, Illinois (https://
        www.farmlandinfo.org/sites/default/files/
        AFT_NRCS_Case%20Thorndyke%20web2.pdf)
                american farmland trust climate experts
    American Farmland Trust (AFT) has a wide range of experts that can 
serve as a resource on issues related to agriculture and climate 
change, including:
    Jennifer Moore-Kucera, Ph.D., Climate Initiative Director, was 
hired in late 2018 to provide overall leadership for AFT's climate work 
and technical assistance to the U.S. Climate Alliance states. Jen is a 
nationally recognized soil health expert having led NRCS's West Region 
Soil Health Team and co-directed the USDA Northwest Climate Hub. Before 
that, Jen was an associate professor in environmental soil microbiology 
at Texas Tech University.
    Tim Fink, Policy Director, was hired in 2019 to develop AFT's 
overall policy strategies. Tim brings extensive policy experience from 
both the agriculture and energy sectors to AFT's work on the Farm Bill 
and work advocating for agriculture to be included in federal and state 
climate plans.
    Jimmy Daukas, Senior Program Officer, has worked on agriculture and 
climate issues at AFT in various leadership roles for over 20 years. He 
spearheads AFT's work on smart solar siting. Jimmy also serves on the 
Steering Committee of the Coalition on Agriculture Greenhouse Gases.
    Michelle Perez, Ph.D., Water Initiative Director, leads a companion 
effort that addresses nonpoint source pollution. An expert in 
quantifying environmental outcomes, she is working in partnership with 
the NRCS through a Conservation Innovation Grant on the work entitled 
``Quantifying Economic and Environmental Outcomes of Soil Health''. The 
first four case studies published outline outcomes that have been 
shared with this testimony.
    Gabrielle Roesch-McNally, Women for the Land Director, leads AFT's 
national initiative to ensure women landowners have access to the 
resources and technical advice to lead in building resilient agrifood 
systems. She is an expert in producer decision-making in the context of 
climate change adaptation and mitigation and has written or contributed 
to many publications on climate change. Before AFT she worked at the 
USDA Northwest Climate Hub.
    Brian Brandt, Director of Conservation Innovation, is an expert on 
environmental markets. He currently manages a project that employs 
conservation practices in the Ohio River Basin to reduce pollutants 
contributing to the dead zone in the Gulf of Mexico.
    Mitch Hunter, Director of Research, returned to AFT in 2019 to lead 
its collaborative research program, including `Farms Under Threat,' a 
comprehensive data project with multiple connections to climate. He is 
an expert in sustainable intensification and climate resilience in 
agriculture.
    Ann Sorensen, Ph.D., Research Senior Advisor, is author of more 
than 70 refereed papers. Ann has had an outsized influence on 
agricultural policy during three decades at AFT. She currently advises 
on `Farms Under Threat,' having led the project and recently taken 
partial retirement.
    Beth Sauerhaft, Ph.D., Vice President who oversees AFT's National 
Initiatives (including Climate and Water). Just hired in early 2019, 
Beth brings to AFT experience as an environmental and social 
sustainability consultant, a sustainability officer at a global food 
company, and an EPA official. She began her career at NRCS.
    David Haight, Vice President who oversees AFT's Regional Offices, 
where AFT works directly with farmers on conservation practices and 
with state legislators on agricultural policy. David is spearheading 
AFT's effort to bring on-the-ground experiences to U.S. Climate 
Alliance states. This work involves several of AFT's regional 
directors.
    John Piotti, President & CEO, sees climate as the central issue of 
our times and agriculture as essential to achieving climate goals. As 
such, he plays a direct role in AFT's Climate Initiative, bringing a 
wealth of experience in management and program development.

    Ms. Castor. Thank you very much.
    Mr. Yoder, you are recognized for 5 minutes.

                    STATEMENT OF FRED YODER

    Mr. Yoder. Well, good afternoon, Chair Castor, Ranking 
Member Graves, and members of the Select Committee on the 
Climate Crisis. I thank you for the opportunity to appear 
before you today to share some of my thoughts and experiences 
involving opportunities for agriculture to contribute solutions 
to climate change and challenges.
    My name is Fred Yoder, and I am a fourth generation farmer 
who has lived and farmed near Plain City, Ohio for over 45 
years. Along with my wife, Debbie, and our two children and 
their families, we grow corn, soybeans, and wheat. We have also 
operated a retail farm seed business for over 40 years and sell 
all kinds of seed to farmers including biotech, conventional, 
and also the ones that grow organic crops. We also offer 
precision technologies to help farmers increase their 
efficiencies.
    I am testifying today as both a working farmer and also co-
chair of Solutions for the Land, a farmer-led, non-governmental 
organization that works to place America's farms, ranches, and 
forests at the forefront of resolving food system, energy, 
environmental, and climate challenges and achieving global 
sustainable development goals.
    I want to begin by affirming one important fact. Although 
the topic we are discussing today can be politically divisive, 
my personal observations and experiences have taught me there 
is evidence that climate is, indeed, changing. I see it 
happening before my very eyes. Science isn't perfect, but it is 
the very best tool we have to make assessments, and the science 
on this topic is clear. It is time to stop debating whether the 
climate is changing because of natural or human activities and 
come together and advance proven, pragmatic, and innovative 
agricultural solutions that benefit producers, the public, and 
the planet.
    We as an industry are also uniquely positioned to be the 
ones that can deliver the solutions. In central Ohio where I 
farm, we have already experienced one of the most difficult 
growing seasons I can ever remember in my career. In my written 
testimony, I discuss the need to utilize the three 
complementing and interlocking climate smart agriculture, or 
CSA, to address climate challenges.
    First, sustainably increasing agricultural productivity and 
livelihoods. The second one is enhancing adaptive capacity and 
improving resilience, especially in our soils. And third, 
delivering ecosystem services, sequestering carbon, and 
reducing and/or avoiding greenhouse gas emissions. The reason 
CSA is an effective strategy for engendering farmer 
participation and support is the approach places farmers at the 
center of all climate discussions and decisions.
    I also discuss a number of guiding principles that should 
be understood and followed as we determine agriculture's 
response strategies to a changing climate. Science-based 
decisionmaking should be the foundation for the adoption of 
climate smart technologies and practices for sustainable 
agriculture and global food production. There is no silver 
bullet solution for enhancing the resilience of agriculture. 
Solution strategies must adopt a systems approach.
    While climate change will pose serious changes for the 
agriculture and forestry sectors, it will also present new 
opportunities in the form of near-term high value and lower 
cost mitigation services. These sectors can provide in the form 
of carbon dioxide captured by crops, grasses, trees, and 
sequestered in the soil emission reductions from improved 
agriculture management practices, emissions that are avoided 
through the production and use of renewable energy and fuels 
and bio-based products.
    So what can you all do to help us? First, you can call for 
increased federal funding for conservation tillage, cover crop, 
biogas programs administered through USDA NRCS, environmental 
quality incentives, conservation stewardship, and regional 
conservation partnership program. There are very good people in 
these positions. We just need more of them.
    You can call to rebuild the capacity of NRCS state 
conservation agencies and local conservation districts to 
provide much-needed technical assistance in writing and 
implementing CSA plans, providing funding for our nation's land 
grant universities, and expand CSA research and extension work. 
We can offset fossil fuel emissions by using biomass to produce 
renewable energy and bio-based production.
    You can restore USDA's ability to conduct agriculture and 
economic research in support of CSA. You can enable, through 
proper funding, USDA is network of climate hubs to develop and 
deliver science-based, regional specific information and 
technologies to farmers and natural resource managers.
    Finally, I thank you for providing a real farmer an 
opportunity to speak to you on this critically important topic, 
and I look forward to your questions.
    [The statement of Mr. Yoder follows:]

                        Testimony of Fred Yoder

    Corn, Soybean & Wheat Farmer; Co-Chair, Solutions from the Land

   Before the U.S. House of Representatives Select Committee on the 
                             Climate Crisis

      ``Solving the Climate Crisis: Opportunities in Agriculture''

                            October 30, 2019

    Good afternoon Chair Castor, Ranking Member Graves, and members of 
the House Select Committee on the Climate Crisis. Thank you for the 
opportunity to appear before you today to share some of my thoughts and 
experiences involving opportunities for agriculture to contribute 
solutions to climate change challenges.
    My name is Fred Yoder, and I am a 4th generation farmer who has 
lived and farmed near Plain City, Ohio for over 45 years. Along with my 
wife Debbie and our 2 children and their families, we grow corn, 
soybeans, and wheat. We have also operated a retail farm seed business 
for over 40 years and sell seed to all kinds of farmers including those 
who use biotech varieties, conventional varieties, and those who grow 
organic crops. Additionally, we sell precision agriculture equipment to 
help farmers improve their planting and harvesting operations.
    I am testifying today as both a working farmer and as Co-Chair of 
Solutions from the Land (SfL), a farmer led non-governmental 
organization that works to place America's farms, ranches and forests 
at the forefront of resolving food system, energy, environmental and 
climate challenges and achieving global sustainable development goals. 
SfL's mission is to identify and facilitate the implementation of 
integrated policies, practices and projects at a landscape scale that 
will result in land being sustainably managed to produce food, feed, 
fiber and energy, while enhancing biodiversity, protecting and 
improving critical environmental resources and delivering high value 
solutions to combat climate change.
    I want to begin by affirming an important fact. Although the topic 
we are discussing today can be politically divisive, my personal 
observations and experiences have taught me there is evidence that the 
climate is indeed changing. I am a farmer living and working through 
these climate changes. Climate change is disrupting my operations today 
and is a major threat multiplier to the future economic viability of my 
four decade plus family farming operation. As I said in a recent 
Politico story on this topic, it's absolutely a crying shame that we've 
politicized climate change. Agriculture is a science-based industry. I 
make decisions on my farm based on the best science I can find. Science 
is telling us that the climate is changing. I see it happening before 
my very eyes. Science isn't perfect, but it's the very best tool we 
have to make assessments, and the science on this topic is clear.
    It's time to stop debating whether or not the climate is changing 
because of natural or human activities and come together and advance 
proven, pragmatic and innovative agricultural solutions that benefit 
producers, the public and the planet. I've devoted much of my life to 
this cause and that's why I took a day off from my fall harvest to be 
with you for this very timely and important hearing.
    Farmers and ranchers are directly impacted by climate change, and 
we as an industry are also uniquely positioned to help deliver 
solutions. Disastrous events due to extreme weather are becoming more 
frequent, and their cost is enormous. Farmers and ranchers have taken 
steps to prepare for disasters--but despite their best efforts, the 
scale of these events has led to widespread crop damage and losses. 
Weather-related changes make it riskier to raise livestock and produce 
crops--and require greater resilience. Rising temperatures can reduce 
the fertility of livestock, reduce their rate of gain, and likewise 
reduce crop yields. Weather changes have increased the length of the 
frost-free period (and corresponding growing season), increased 
precipitation and heavy downpours, and increased frequency of extreme 
weather events like droughts, floods, fires, and heat waves. These are 
not things science is telling us will happen. These challenges are 
happening now and we are struggling mightily to adapt.
    In central Ohio where I farm, we have already experienced one of 
the most difficult growing seasons that I can remember during my 
farming career. Last year was almost a record wet year, delaying 
planting by weeks. This was followed by 6 rain events during the 
growing season of over 2 inches each, and then by a fall that contained 
virtually no harvest days during the whole month of November. We 
finally finished field work shortly before Christmas. This year's 
spring planting was again delayed by weeks because of wet and saturated 
soils. This was followed by a very dry July and August, greatly 
restricting plant growth and delaying maturity. As we hopefully finish 
up harvest this week, yields have been down 20 to 30% from historical 
numbers. Luckily, this year at least we have so far enjoyed a dry and 
warm harvest in Ohio, and should finish on time.
    Elsewhere, a large swath of the country experienced record winter 
precipitation in 2019, in some areas up to 200 percent above normal, 
leading to major flooding. Spring flooding across the Midwest left many 
fields unplanted, resulting in about $2 billion of losses in uninsured 
stored crops. Cool, wet springs across the Midwest and Ohio River 
Valley delayed planting, which meant changes in which crops were 
planted. The Mississippi River rose to historical levels and left acres 
of fields in Mississippi inaccessible--even for wildlife. Early fall 
blizzards and early freezes damaged crops in the Dakotas and Upper 
Midwest. The 2016 California drought was also devastating, resulting in 
$247 million loss of farm-gate revenues and up to $600 million in 
spillover value lost to the rest of the economy. North Carolina farmers 
and livestock growers experienced more than $1.1 billion in losses from 
Hurricane Florence in 2018. And the list goes on.
    Over the past four years, Solutions from the Land has been 
facilitating and supporting the North America Climate Smart Agriculture 
Alliance (NACSAA), a coalition of over 70 farm, ranch, forestry, 
conservation, academic and government partners. These groups have 
joined together to create a platform for inspiring, educating, and 
equipping agricultural partners to innovate effective local adaptations 
that sustain productivity, enhance climate resilience, and contribute 
to local and global goals for sustainable development. The Alliance is 
producer-led and focused on utilizing climate-smart agriculture (CSA) 
strategies to enhance the adaptive capacity of North American 
agriculture. Adaptive management involves responses taken by producers 
and the value chain to reduce risks and capture opportunities created 
by changing conditions. These actions range from minor adjustments in 
existing production systems to major changes in production and 
marketing practices.
    In considering agricultural solutions to climate change, it's 
important to recognize and respect the fact that CSA is built upon 
three complementing and interlocking strategies: (1) sustainably 
increasing agricultural productivity and livelihoods (i.e. sustainable 
intensification); (2) enhancing adaptive capacity and improving 
resilience; and (3) delivering ecosystem services, sequestering carbon, 
and reducing and/or avoiding greenhouse gas emissions (GHGs). This 
approach has been embraced and successfully deployed by many 
stakeholders at the state and national level here in the U.S. and on a 
global scale through FAO and the Global Alliance for Climate Smart 
Agriculture, of which SfL is an active member. The reason CSA is an 
effective strategy for engendering farmer participation and support is 
that the approach places farmers at the center of all climate 
discussions and decisions. It recognizes that the key to engaging and 
empowering famers to act is to begin by focusing on economically viable 
systems and practices that benefit the famer, improve resilience and 
simultaneously deliver high value ecosystems services that the public 
seeks. When I talk to fellow farmers about climate change, I don't talk 
about what they can do or need to do to save the planet; I talk about 
innovative practices and systems that help their economic and 
environmental bottom lines. These same practices also provide solutions 
to climate change.
    Farmers and ranchers take great pride in the practices they use on 
the farm to protect and enhance the environment. Not every practice 
will work for every farm. There are 20,000 soil types, 28 growing 
zones, and 18 major watersheds across the United States. What works in 
one area may or may not work in another.
    That brings me to the second topic I want to cover today--the 
guiding principles that should be understood and followed as we 
determine agricultural response strategies to a changing climate. We 
have given this subject a lot of thought. Working with our NACSAA 
partners, we've adopted a set of Climate Smart Agriculture guiding 
principles and are advocating for their use at the global level through 
our involvement in the United Nations Framework Convention on Climate 
Change, of which SfL is an observer organization and contributor. 
Guiding principles are needed to establish a framework for expected 
behavior and decision-making. I urge the House Select Committee to 
embrace and follow these guiding principles as you develop your 
recommended agricultural solution pathways to address the climate 
crisis:
          <bullet> As affirmed in the communique from the 8th Meeting 
        of G20 Agricultural Chief Scientists (MACS), science-based 
        decision making should be the foundation for the adoption of 
        climate smart technologies and practices for sustainable 
        agriculture and global food production.<SUP>i</SUP>
---------------------------------------------------------------------------
    \i\ G20 Japan. 8th Meeting of Agricultural Chief Scientists (MACS) 
Communique [Press Release]. (2019). Retrieved from http://
www.affrc.maff.go.jp/docs/press/attach/pdf/190427-3.pdf.
---------------------------------------------------------------------------
          <bullet> Production and production efficiency per unit of 
        land must increase going forward to meet the food needs of the 
        future while incurring no net environmental 
        cost.<SUP>ii, iii</SUP>
---------------------------------------------------------------------------
    \ii\ Pretty, J. (2018). Intensification for redesigned and 
sustainable agricultural systems. Science, 362(6417), eaav0294.
    \iii\ Campbell, B. M., Thornton, P., Zougmore, R., Van Asten, P., & 
Lipper, L. (2014). Sustainable intensification: What is its role in 
climate smart agriculture? Current Opinion in Environmental 
Sustainability, 8, 39-43.
---------------------------------------------------------------------------
          <bullet> As reflected in the Sustainable Development Goals 
        (SDGs) of the United Nations, outcomes (rather than means) 
        applicable to any scale of enterprise must be emphasized, 
        without predetermining technologies, production type or design 
        components.<SUP>iii</SUP>
          <bullet> Adaptation strategies must be recognized to require 
        system approaches <SUP>iv</SUP> that utilize a combination of 
        improved efficiency, substitution (e.g. new crop varieties and 
        breeds), and redesign/system transformation to reflexively 
        respond to continuous short- and long-term changes in climate's 
        impacts on cultivated and natural ecosystem conditions.
---------------------------------------------------------------------------
    \iv\ Tittonell, P. (2014). Ecological intensification of 
agriculture--sustainable by nature. Current Opinion in Environmental 
Sustainability, 8, 53-61.
---------------------------------------------------------------------------
          <bullet> Peer reviewed academic, business and farmer climate 
        smart agriculture research and knowledge sharing 
        recommendations should guide decision-making.
          <bullet> There is no silver bullet solution for enhancing the 
        resilience of agriculture: solution strategies must embrace a 
        systems approach that recognizes the tremendous diversity of 
        agricultural landscapes and ecosystems and enables producers to 
        utilize the systems and practices that best support their 
        farming operations.
          <bullet> Farmers must be at the center of all discussions and 
        decision-making; significant input will be needed from a wide 
        range of agricultural stakeholders, including technical 
        agricultural experts drawn from farmer organizations, academia, 
        industry, and international and regional organizations.
          <bullet> Context-specific priorities and solutions must be 
        aligned with national policies and priorities, be determined 
        based on the social, economic, and environmental conditions at 
        site (including the diversity in type and scale of agricultural 
        activity), and be subject to evaluation of potential synergies, 
        tradeoffs, and net benefits.<SUP>v</SUP>
---------------------------------------------------------------------------
    \v\ North American Climate Smart Agriculture Alliance (2015). A 
platform for knowledge sharing and application of climate science to 
agriculture [Report]. Retrieved from: https://www.sfldialogue.net/
files/sfl_formation_plan_2015.pdf.
---------------------------------------------------------------------------
    In SfL's work facilitating farmer-led, multi-stakeholder CSA 
collaboratives in North Carolina, Ohio, Missouri, Florida and Iowa, we 
have found general agreement that agriculture is undergoing 
transformational change and that climate change is a threat multiplier 
that requires additional discussion and adaptive management planning. 
While the types and ways crops and livestock are produced in each state 
vary, the leaders we have engaged agree that their level of 
preparedness to adapt to and mitigate the effects of climate change is 
inadequate. Most forged consensus on the need to conduct comprehensive 
agricultural vulnerability assessments along the lines of the 
assessment the state of California just produced. And most agreed on 
the need to develop and implement comprehensive adaptive management and 
ecosystem service action plans to enhance the resilience of agriculture 
and improve the environment.
    Federal support to accelerate and scale up work in these areas 
across the country is needed and could be one of the House Select 
Committee's primary recommendations to help the agriculture sector 
deliver climate smart agriculture solutions from the land. Examples of 
areas of focus for these ecosystem service action plans include:
          <bullet> Enabling policies which facilitate public and 
        private payments to farmers for the ecosystem services they 
        produce with CSA systems and practices;
          <bullet> Production systems that improve efficiency and 
        reduce inputs;
          <bullet> Conservation practices that improve soil organic 
        content, sequester carbon and enhance water storage;
          <bullet> Reforming crop insurance policies that work at cross 
        purposes with CSA practice adoption, such as those that 
        disincentive the planting of fall cover crops;
          <bullet> Investments in research and knowledge sharing to 
        give producers confidence to innovate with emerging CSA 
        systems;
          <bullet> Investments in technology innovation to allow for 
        more widespread adoption of precision agriculture systems such 
        as variable rate fertilizer application technologies;
          <bullet> Infrastructure investments to allow communities to 
        better manage water challenges from prolonged droughts or 
        intense rain events, ensuring the safe and timely delivery of 
        goods and services necessary to protect the ag economy and 
        national food system; and
          <bullet> Removal of regulatory barriers which impede the 
        deployment of lower-carbon, high-octane biofuels and new 
        engines that can be optimized to run on these cleaner-burning 
        fuels.
    While climate change will pose serious challenges for the 
agriculture and forestry sectors, it will also present new 
opportunities in the form of the near-term, high-value, and lower-cost 
mitigation services these sectors can provide. The potential reductions 
directly available from these sectors come through three principal 
mechanisms: carbon dioxide captured by crops, grasses, and trees and 
sequestered in the soil; emission reductions from improved agricultural 
management practices; and emissions that are avoided through the 
production and use of renewable energy and fuels and biobased products.
    Fostering the implementation of practices that increase the uptake 
and storage of carbon into the system will pay dividends for both the 
climate and food security while delivering multiple ecosystem service 
co-benefits. For example, increasing soil carbon sequestration for 
climate increases soil organic matter which can enhance nutrient 
cycling, water retention and infiltration, support soil biodiversity, 
and increase crop productivity and climate resilience. These co-
benefits are particularly important in Ohio where nutrient leaching 
from farm fields is contributing to nutrient pollution in Lake Erie.
    It is impossible to overstate how important land-based solutions 
like the ones we have discussed will be to address global climate 
change going forward into the future. Dr. Rattan Lal, Ohio State 
University's Nobel Prize-winning expert on soil carbon management and 
an IPCC report contributor, predicts that properly managed soil, 
vegetation and animal systems worldwide could achieve 157 parts per 
million of CO<INF>2</INF> drawdown per year by the next century--nearly 
40% of 2018's global atmospheric carbon levels. Enabling policies that 
address climate change through agriculture and forestry can unlock the 
huge, untapped potential for America's farms to lead the way towards 
this goal through both economic and environmental sustainability.
    Another important climate solution pathway is offsetting fossil 
fuel emissions by using biomass to produce renewable energy and 
biobased products. Because bioenergy emits far fewer GHGs than its 
petroleum equivalents, broader use can help mitigate climate change. 
Those benefits were strongly underlined by a USDA study released 
earlier this year showing that GHGs from corn-based ethanol are about 
39 percent lower than from gasoline. The study also states that when 
ethanol is produced at refineries powered by natural gas, GHGs are even 
lower, running around 43 percent below gasoline.
    The USDA report serves as a reminder of the need for further 
appropriate policy measures that can optimize the climate benefits 
offered by bioenergy--an end product of agriculture--to maximize the 
climate solutions producers can provide from the land. While expanding 
the opportunity for sales of E15 earlier this year has been a good 
step, confusion continues to reign over EPA's handling of small-
refinery waivers under the Renewable Fuel Standard. The biofuel sector 
and farmers who grow its feedstocks remain shortchanged under a 
proposal EPA has deemed to be a resolution of the waiver dispute. It's 
an issue that must soon be resolved to optimize the contributions our 
nation's biofuel producers can generate to help stem the ongoing and 
damaging changes to our climate.
    Early action and ``big return'' steps you could champion to 
accelerate climate solutions from agriculture include not only 
improving access to biofuel and other markets for farmers, but also:
          <bullet> Calling for increased federal funding for 
        conservation tillage, cover crop, and biogas programs 
        administered through the USDA NRCS, Environmental Quality 
        Incentives, Conservation Stewardship and Regional Conservation 
        Partnership Programs;
          <bullet> Rebuilding the capacity of NRCS, state conservation 
        agencies and local conservation districts to provide much 
        needed technical assistance in writing and implementing CSA 
        plans; providing funding to our nation's land-grant colleges to 
        expand CSA research and extension work;
          <bullet> Ensuring that rural areas have access to broadband 
        internet service to enable CSA precision agriculture 
        technologies;
          <bullet> Restoring USDA's ability to conduct agricultural and 
        economic research in support of CSA; and
          <bullet> Enabling, through proper funding, USDA's network of 
        Climate Hubs to develop and deliver science-based, region-
        specific information and technologies, with USDA agencies and 
        partners, to agricultural and natural resource managers that 
        enable climate-informed decision-making, and to provide access 
        to assistance to implement those decisions.
    Thank you for providing farmers with the opportunity to speak on 
this topic. Agriculture is a high value and near term solution to 
climate change challenges and farmers need to be directly involved in 
the climate change policy development process. We hope you will look to 
Solutions from the Land as a resource as you move forward in exploring 
the challenges and opportunities that climate change will present to 
the agricultural and forestry sectors. I would be pleased to respond to 
any questions.

    Ms. Castor. Thank you, Mr. Yoder.
    Ms. Owens, you are recognized for 5 minutes.

                    STATEMENT OF TINA OWENS

    Ms. Owens. Good afternoon, Chair Castor, Ranking Member 
Graves, and members of the committee. Thank you for holding 
this hearing and putting a spotlight on the climate crisis, one 
of the greatest challenges before us as a society.
    My name is Tina Owens, and I am honored to be here on 
behalf of Danone North America as its Director of U.S. 
Agriculture. Danone is a global food company that has been in 
the dairy business for 100 years and employs approximately 
5,000 employees in the U.S. We buy directly from more than 700 
farms across the country for our most important ingredient, 
which is milk. You may know us best for our yogurt brands that 
include Dannon, Oikos, and Activia.
    Danone's overarching vision of one planet, one health 
drives our sense of purpose and responsibility, not only to our 
shareholders, but also the many other stakeholders of our 
business including our suppliers, our customers, our consumers, 
and our farmer partners. My role is to lead and coordinate 
Danone North America's investment with our farming partners. 
Simply put, our business cannot exist without the individuals 
and families who are willing to take on the daily work and 
personal risk that is farming in America. Their success is our 
success.
    As a major food company, we can plainly see that the 
climate crisis adds an immense additional layer of risk for our 
food system. Our farms and food businesses are among the first 
to feel the impact of this extra volatility. It is clear that 
to reduce the most extreme risk associated with climate change, 
agriculture must be a central part of the equation. To meet 
this challenge, we are actively pursuing new models of working 
with farmers that incentivize the adoption of new management 
practices that can address climate change.
    Our largest focus is on soil health. In 2018, we launched a 
5-year, $6 million soil health initiative aimed at capturing 
carbon and overcoming common obstacles to building soil health 
management systems. This program, which targets both economic 
resilience and environmental impact, is a strong starting point 
for Congress to develop complimentary policies options.
    Our approach has the following three pillars. Pillar number 
one is about science. While there is ample research on how soil 
captures carbon, better understanding of regional differences 
is key. We have worked with several university partners to help 
provide a scientific baseline, economic analysis, and soil 
sampling. A coordinated approach between government and 
research institutions for improving soil health allows all 
stakeholders to better understand the potential for different 
farming systems to capture carbon and reduce net greenhouse gas 
emissions.
    Pillar number two is about data. Data is vital for tracking 
and verifying progress and improving the carbon capture in 
soil. We partner with the eco practices platform to help us and 
our farmer partners understand both the return on investment 
for improving the health of soil and the environmental impacts 
of soil health practices. When new activities are implemented, 
farms then have the data to understand the impact of their 
change in management practices.
    Pillar number three is about incentives. We believe that 
improving soil health can provide a return on investment to 
farms, but the short-term cost of implementing these practices 
can often stand in the way.
    Since improving soil health takes a holistic approach, we 
need to incentivize farms so that the benefits can be realized 
in the fewest number of crop cycles. We are working with the 
USDA to incentivize practices for soil health and ideally would 
create contracts that cover multiple practices over multiple 
years. In many cases, it takes just three to four core 
practices to achieve real climate results.
    In conclusion, the climate crisis may be felt first by 
those who are closest to the land, but its impact will 
eventually touch everyone who produces, sells, buys, and eats 
food. While there is no single solution when it comes to our 
complex agriculture landscape, building new and lasting soil 
health management solutions holds promise for the climate 
benefits we need as a society.
    These systems must be scalable relative to the size of the 
climate crisis, and they must support the livelihood on farmers 
on which we all rely. While the work of one company cannot 
bring all the climate solutions we need, our scale and our 
partnerships have the power to show that the impact of soil 
health on the climate crisis is real, measurable, and 
replicable. We must act together now to scale similar impact 
through policy and investment in American farms.
    Thank you for the opportunity to appear before you today. I 
would be happy to answer any questions the committee may have.
    [The statement of Ms. Owens follows:]
                               __________

                        Testimony of Tina Owens

   Sr. Director, Agricultural Funding & Communication, Danone North 
                                America

   Before the U.S. House of Representatives Select Committee on the 
                             Climate Crisis

      ``Solving the Climate Crisis: Opportunities in Agriculture''

                            October 30, 2019

    Chair Castor, Ranking Member Graves, and members of the Committee; 
thank you for holding this hearing and putting a spotlight on the 
climate crisis--one of the greatest challenges before us as a society.
    My name is Tina Owens and I am honored to be here on behalf of 
Danone North America as its Director of U.S. Agriculture.
    Danone is a global food company that has been in the dairy business 
for 100 years and employs 100,000 people around the world. As the 
largest part of that global business, Danone North America employs 
approximately 5,000 employees in the U.S. and buys directly from more 
than 700 American farms across the country for our most important 
ingredient--milk. Most U.S. consumers know us by our yogurt brands: 
Dannon, Oikos, Activia and Wallaby Organic to name a few. Within our 
family of brands, we are proud to own one of the original pioneers in 
organic dairy, Horizon Organic. We are also industry leaders in plant-
based brands and products such as Silk (soy, almonds and oat milks), So 
Delicious (frozen desserts) and Vega (nutritional products). We aim to 
bring health through food to as many people as possible by providing a 
wide variety of healthy and affordable everyday food choices.
    Danone has a history of thinking differently about the role of 
business and valuing social progress alongside business growth. We 
believe that we have a responsibility to use business as a force for 
good and are proud to be the largest Certified B Corporation  and 
largest public benefit corporation in the world. Danone's overarching 
vision of ``One Planet. One Health'' drives our sense of purpose and 
responsibility toward not only our shareholders, but also the many 
other stakeholders of our business, including our suppliers, our 
customers, our consumers and our farmer partners.
    My role is to lead and coordinate Danone North America's 
investments with our farming partners who supply the ingredients 
essential to our products. Simply put, our business cannot exist 
without the individuals and families who are willing to take on the 
daily work and personal risk that is farming in America. Their success 
is our success. Therefore, as we consider the risks and volatility that 
climate change presents for us and our farming partners, it is not only 
the right thing to do, it is also good business sense. As you know from 
your important work on the farm bill, robust policy related to 
agriculture can make a world of difference in the amount of risk borne 
by individual farmers on a daily basis. It is precisely for this reason 
that we come before this Committee today to discuss the potential for 
new paths forward in advancing agriculture in the face of climate 
change.
    As a major food company, we can plainly see that the climate crisis 
adds an immense, additional layer of risk to the network of producers 
across the country that we rely on for our food system. We have all 
heard about or felt extreme weather impacting us--be it through record 
hurricanes, droughts, or heavy spring rains. Our farms and food 
businesses are among the first to feel the impact of this extra 
volatility, which also significantly impacts federal budgets. For 
example, this past year, farmers were unable to plant more than 19 
million acres due to severe spring rains--a record number cited by 
USDA.\1\ For a dairy, that may mean higher input costs at a time when 
farmers already cannot afford any surprises.\2\
---------------------------------------------------------------------------
    \1\ https://www.fsa.usda.gov/news-room/news-releases/2019/report-
farmers-prevented-from-planting-crops-on-more-than-19-million-acres.
    \2\ Increased and sustained heat can also exacerbate dairy 
inefficiencies and costs, for example, see https://www.canr.msu.edu/
news/summer-s-hot-weather-will-cause-heat-stress-in-dairy-cattle.
---------------------------------------------------------------------------
    Various recent reports are clear that to reduce the most extreme 
risk associated with climate change, the land sector, including 
agriculture, must be a central part of the equation.\3\ To meet this 
challenge, Danone North America is actively pursuing new models of 
working with farmers that incentivize the adoption of new farm 
management practices that can address climate change. For instance, we 
have long-term contracts with dairies to help alleviate the short-term 
volatility of the market and allow farmers to consider new ways of 
farming, and are searching for new, innovative ways to finance social 
impact with farms and suppliers. We are encouraged that the Committee 
is reviewing the potential for agriculture to contribute to climate 
change mitigation, and we look forward to working with the Committee as 
it prepares to issue policy recommendations in 2020.
---------------------------------------------------------------------------
    \3\  For example, see Intergovernmental Panel on Climate Change 
(IPCC) latest report acknowledging exacerbated risks to land sector by 
climate change and the need for the land sector, including agriculture 
to provide mitigation solutions.
---------------------------------------------------------------------------
                           global commitments
    Similar to actions taken by 285 companies, Danone globally has 
adopted a Science-Based Target which for Danone means a 30% reduction 
of greenhouse gas (GHG) emissions by 2030.\4\ This target includes our 
entire footprint from our supply-chain at the farm level to the end of 
life of our packaging.\5\
---------------------------------------------------------------------------
    \4\ The 30% reduction is based on a 2015 baseline. For a full 
explanation of science-based targets and what other companies are 
taking similar action, please see https://sciencebasedtargets.org/
companies-taking-action/.
    \5\ https://www.danone.com/impact/planet/towards-carbon-
neutrality.html.
---------------------------------------------------------------------------
    During Climate Week this year, we were also one of 87 companies 
that acknowledged the recent science by commiting to carbon neutrality 
by 2050 in order to help prevent a rise in temperatures of more than 
1.5 C degrees.\6\
---------------------------------------------------------------------------
    \6\ https://www.wemeanbusinesscoalition.org/press-release/87-major-
companies-lead-the-way-towards-a-1-5c-future-at-un-climate-action-
summit/.
---------------------------------------------------------------------------
    And to complement these commitments, at the United Nations Climate 
Action Summit in September, Danone's global CEO, Emmanuel Faber, 
announced a new business coalition, One Planet Business for 
Biodiversity--alongside 18 other major agriculture-driven companies 
with more than $500 billion in total annual revenue. Together these 
companies will work to develop nature-based solutions for the climate 
crisis,\7\ in three ways: advancing regenerative agriculture and soil 
health, boosting cultivated biodiversity and resilient food and 
agriculture models within our product portfolios, and eliminating 
deforestation in our supply chains.
---------------------------------------------------------------------------
    \7\ https://op2b.org/.
---------------------------------------------------------------------------
                      u.s. soil health initiative
    In 2018 Danone North America launched a five-year, $6 million Soil 
Health Initiative to help our farmer partners to restore the ability of 
soil to capture carbon and overcome common obstacles to building soil 
health management systems. We believe that this program, which targets 
both economic resilience and environmental impact, is a strong starting 
point for Congress to develop complementary policy options to 
incentivize and assist farmers and their partners for lasting impact at 
a nationwide scale. Our approach has the following pillars:
          <bullet> Start with soil science--While there is ample 
        research on soil and its capacity to capture and sequester 
        carbon, understanding the variables and nuances that come with 
        regional differences in growing regions and farm management is 
        key. Danone North America has worked with university partners 
        from the Ohio State University and Cornell University to help 
        provide a scientific baselines, economic analysis, soil 
        sampling and overall advice as we implement our program. In the 
        U.S., we have arguably the strongest agricultural reseach 
        institutions in the world, including the U.S.D.A. climate hubs. 
        Similarly, a coordinated approach between government and 
        research institutions for improving soil health would allow all 
        stakeholders, particularly the private sector, to better 
        understand the potential and variances for different farming 
        systems to capture carbon and reduce net GHG emissions.
          <bullet> Improve the use of data in farm planning and 
        measuring results--Data is vital for tracking and verifying 
        progress in improving the ability of soil to capture and 
        sequester carbon. Danone North America partners with 
        Sustainable Environmental Consultants and its EcoPractices 
        platform to help us and our farmer partners understand two main 
        issues: the economic return on investment for the farms of 
        improving the health of their soil, and the environmental 
        impacts of soil health practices using a variety of measurement 
        tools.\8\ Working with a trusted third party like EcoPractices 
        also allows us to ensure farmers' privacy in data collection 
        and provides ``boots on the ground'' to assist farmers with 
        creating a continuous improvement plan for soil health 
        practices. When new activities are implemented, farms then have 
        the data to understand the impact of their change in management 
        practices. We are exploring ways to leverage this work with 
        USDA technical assistance funding so that we can scale-up with 
        additional farms.
---------------------------------------------------------------------------
    \8\ Danone North America relies on EcoPractices to establish 
application program interfaces (APIs) with various measurement tools 
such as Field to Market, COMET-Farm, and Cool Farm Tool. We remain 
flexible to improve and adjust our measurement tools should any become 
more widely accepted.
---------------------------------------------------------------------------
          <bullet> Provide incentives for most impactful practices--
        While we have initial findings that practices to improve soil 
        health can provide a return on investment to farms, the short-
        term costs of implementing these practices often stand in the 
        way of their adoption. Since improving soil health takes a 
        systems approach, we need to help farms financially to build-in 
        new practices so that the benefits to soil, input efficiency 
        and yields can be developed quickly in the fewest number of 
        crop cycles. We work directly with farms to understand the 
        financial support they need to implement new practices like 
        reducing tillage, adding cover crops, enhancing crop diversity, 
        improved manure management, ensuring irrigation efficiency, and 
        adding vegetative field buffers to help prevent water running 
        off fields. We are also working with USDA to incentivize these 
        practices for soil health and ideally would create contracts 
        that cover multiple practices over multiple years so farmers 
        know they will still be profitable while restoring the soil. It 
        is essential, however, that financial incentives--whether they 
        come from our company or from USDA--be simple, straightforward 
        and have low transaction costs with clear paths of access for 
        the farms. Finally, while there are more than 100 NRCS-approved 
        conservation practice standards, depending on the farming 
        system, we generally need to prioritize fewer than 10 or so 
        practices, and in many cases 3-4 core practices will begin to 
        achieve real benefits.\9\
---------------------------------------------------------------------------
    \9\ See NRCS's description of the four tenants of soil health, 
https://www.nrcs.usda.gov/wps/portal/nrcs/main/soils/health/mgnt/; and 
similarly Soil Health Institute, https://soilhealthinstitute.org/
resources/best-practices/.
---------------------------------------------------------------------------
                      importance of public policy
    Public targets and strategies like those that Danone North America 
has made with our farmer partners are critical to foster U.S. 
innovation and leadership, but we cannot just tout our own commitments. 
We also support and advocate for state and federal actions to ensure 
that as a society, we are able to meet the science-based need to 
prevent a rise in global temperatures of more than 1.5 degrees. As an 
example, we have joined forces with three other like-minded food 
companies to form the Sustainable Food Policy Alliance to advocate for 
policy action to address challenges such as climate change.\10\ We 
supported policies, for example, in the Farm Bill last year to help 
food companies deliver conservation with U.S. farmers through programs 
such as the Regional Conservation Partnership Program. And we will 
continue to be a voice for how food and agriculture can and must be 
part of the solution to the climate crisis.
---------------------------------------------------------------------------
    \10\ Sustainable Food Policy Alliance has take many policy 
positions to advocate for policy related to combatting climate change, 
see https://foodpolicyalliance.org/issue/environment/.
---------------------------------------------------------------------------
                               conclusion
    The climate crisis may be felt first by those who are closest to 
the land, but its impact will eventually touch everyone who produces, 
sells, buys, and eats food. It has already begun. While there is no 
single solution when it comes to our complex agricultural systems, 
building new and lasting soil health management systems holds promise 
for the climate benefits we need as a society. These systems must be 
scaleable relative to the size of the climate crisis, and they must 
consider and support the livelihood of the farmers on which we all 
rely.
    Danone North America is committed to combatting climate change for 
the sake of not just our own business but our entire agriculture and 
food sector. While we know the work of one company cannot bring all the 
climate solutions we need, our scale and our partnerships have the 
power to show that the impact of soil health on the climate crisis is 
real, measurable, and replicable. We must act together, now, to scale 
similar impact through policy and investment in American farms.
    Thank you for the opportunity to appear before you today. I would 
be happy to answer any questions you may have.

    Ms. Castor. Thank you very much.
    Mr. Amin, welcome. You have 5 minutes to present your 
testimony.

                    STATEMENT OF VIRAL AMIN

    Mr. Amin. Thank you. Chairwoman Castor, Ranking Member 
Graves, and members of the Select Committee, thank you for the 
opportunity to testify before you today. My name is Viral Amin, 
and I am the Vice President of Commercial Development and 
Strategy for DTE Energy's Power and Industrial Group based in 
Ann Arbor, Michigan.
    At DTE Energy, we believe that climate change is one of the 
defining public policy issues of our time. We applaud this 
committee for taking the initiative to understand what can be 
done.
    Today I would like to introduce you to renewable natural 
gas, a product that is made entirely from waste and has the 
potential to deliver significant greenhouse gas reductions 
while also improving air and water quality and creating well-
paying jobs.
    Renewable natural gas or RNG is exactly what it sounds 
like. It is natural gas made from renewable resources. Derived 
from methane creating by the decomposition of organic matter, 
rather than being extracted from underground fossil-based 
resources, RNG is chemically identical to the natural gas that 
most of us use every day. Livestock operations such as dairy 
and hog farms can be a renewable source of methane.
    Manure management practices are a significant source of 
greenhouse gas emissions in this country. Manure is often 
stored in uncovered lagoons, leading to the release of methane 
into the atmosphere which is 25 times more potent than carbon 
dioxide. RNG projects capture methane by diverting manure to 
large enclosed storage tanks called anaerobic digesters. The 
captured methane is then processed to remove impurities and 
produce a product that can be transported and delivered 
anywhere in this country through our existing natural gas 
pipeline infrastructure and can be utilized by end customers 
without any limitations or changes to their equipment.
    The primary use for RNG today is as a fuel replacement in 
trucks, buses, and cars that are otherwise powered by 
traditional fossil-based natural gas. RNG fuel allows for a 
carbon footprint that is lower than even electric vehicles due 
to the avoidance of farm-based methane emissions. Furthermore, 
because RNG is primarily used by medium and heavy duty trucks, 
emissions of sulfur dioxide, nitrogen oxides, and particulates 
are significantly lower than those of diesel-fueled vehicles.
    DTE is working with 10 dairy farms in Wisconsin to develop 
RNG projects. We have already committed $140 million and are 
looking at more opportunities in other states. We like that our 
investments are driving not only significant greenhouse gas 
emission reductions but that these projects are creating 
economic and environmental wins for the agriculture communities 
in which these projects reside.
    The financial challenges currently faced by dairy farms due 
to low milk prices combined with the additional pressure from 
local communities to improve water quality and reduce odor can 
be partially mitigated by RNG projects in several ways.
    First, DTE pays dairy farmers a share of the revenues 
earned from the sale of RNG, allowing these primarily family-
owned businesses to realize value from a waste byproduct. 
Second, we create new, well-paying jobs in order to develop, 
operate, maintain, and support the complex systems required to 
produce RNG. Third, the process used to produce RNG can reduce 
the number of pathogens within the manure and thereby lower the 
risk of groundwater contamination. And last, but not of least 
importance to dairy communities, many of the volatile compounds 
that contribute to odor are destroyed in the RNG production 
process.
    We believe that RNG is a unique solution in the battle 
against climate change. Harmful methane emissions are captured 
to fuel vehicles, allowing the transportation sector to 
significantly lower its carbon footprint. American farmers 
benefit financially, well-paying jobs are created, and both air 
and water quality in rural communities can be improved.
    In order to encourage investment and expand access to RNG, 
project developers require stable and transparent policy 
mechanisms that promote the use of low carbon fuels and clean 
energy. We ask this committee to understand, support, and help 
stabilize existing policies that have driven investment to date 
and to develop new and additional frameworks that enable the 
market to realize the full potential of RNG. These additional 
mechanisms could include the allocation of funds for R&D to 
drive technology advancement, tax incentives that are at parity 
with other renewable energy sources, and to promote the 
development of natural gas powered vehicles or other RNG uses.
    RNG is a prime opportunity available today to reduce 
methane emissions economically, decrease reliance on fossil 
fuels, and support American farmers and rural economies.
    I appreciate your attention, and I look forward to 
answering your questions. Thank you.
    [The statement of Mr. Amin follows:]
                               __________

                        Testimony of Viral Amin

Vice President, Commercial Development & Strategy, DTE Energy Resources

  U.S. House of Representatives Select Committee on the Climate Crisis

      ``Solving the Climate Crisis: Opportunities in Agriculture''

                            October 30, 2019

    Chairwoman Castor, Ranking Member Graves, and members of the Select 
Committee, thank you for the opportunity to testify before you today. 
My name is Viral Amin, and I am the Vice President for Commercial 
Development & Strategy for DTE Energy's Power and Industrial Group 
based in Ann Arbor, Michigan. DTE Energy is a diversified energy 
company with two utility businesses serving Michigan and various non-
utility businesses with investments throughout the United States. The 
Power and Industrial group of DTE Energy focuses primarily on 
developing renewable energy and industrial energy services projects. At 
DTE Energy, we believe that climate change is one of the defining 
public policy issues of our time. We applaud this committee for taking 
the initiative to understand what can be done.
    We are proud to say that DTE Electric, a regulated utility with 2.2 
million customers and DTE Gas, a regulated utility with 1.3 million 
customers have made commitments to customers to reduce carbon and 
methane emissions, respectively, by more than 80% by 2040, and our goal 
is to achieve net zero emissions from electric generation by 2050!
    Today, I'd like to introduce you to Renewable Natural Gas, a 
product made entirely from waste with the potential to deliver 
significant reductions in greenhouse gases, improve air and water 
quality, and create well-paying jobs.
    Renewable Natural Gas, or RNG, is exactly what it sounds like--it 
is natural gas made from renewable resources. RNG is chemically 
identical to the natural gas that most of us use every day, except that 
it is derived from methane created by the decomposition of organic 
matter, rather than being extracted from fossil-based resources.
    Manure management practices are a significant source of greenhouse 
gas emissions in this country. Manure from livestock operations, such 
as dairy and hog farms, is often stored in uncovered lagoons leading to 
the release of methane into the atmosphere. And, as I am sure this 
committee is aware, methane has a global warming potential that is 25 
times more potent than carbon dioxide.\1\ Agricultural waste accounts 
for over 9% of anthropogenic methane emissions in the U.S., according 
to a 2017 EPA report.\2\
---------------------------------------------------------------------------
    \1\ Global Warming Potential for 100-yr time horizon. Table TS.2. 
Technical Summary in climate Change 2007: The Physical Science Basis. 
Contribution of Working Group I to the Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change.
    \2\ USEPA's Inventory of U.S. Greenhouse Gas Emissions and Sinks, 
1990-2017. In 2017, manure management represented 9.4% of anthropogenic 
methane emissions; landfills accounted for 16.4%.
---------------------------------------------------------------------------
    RNG projects capture methane by diverting manure to large, enclosed 
tanks, called anaerobic digesters. The captured methane is then 
processed to remove impurities and produce a product that can be 
transported and delivered anywhere in this country through our existing 
natural gas pipeline infrastructure and can be utilized by end-
customers without any limitations or changes to their equipment. This 
is the product we refer to as Renewable Natural Gas, or RNG.
    While today's hearing is particularly concerned with the role of 
agriculture in addressing climate, it's important to note that the 
transportation sector is now the leading sector source of 
CO<INF>2</INF> emissions in the United States and the use of RNG in 
alternative fuel vehicles provides a proven cost-effective option for 
reducing the emissions from the heavy-duty transportation fleet. 
According to Natural Gas Vehicles for America, 32 percent of all on-
road fuel used in natural gas vehicles in calendar year 2018 was 
renewable natural gas (RNG).
    DTE and other developers produce RNG from dairy farms for use as a 
fuel replacement in trucks, buses and cars that are otherwise powered 
by traditional fossil-based natural gas. The resulting carbon footprint 
is lower than even electric vehicles! When compared to diesel fuel, 
these vehicles have significantly fewer emissions of other air 
pollutants like sulfur dioxide, nitrogen oxides and particulates. DTE 
has already committed $140 million to develop ten RNG projects at large 
dairy farms in Wisconsin which can power approximately 2,000 
alternative-fuel trucks every year. Five of these projects are in 
operation, while the other five are under construction.
    The financial challenges currently faced by dairy farms due to low 
milk prices, combined with the additional pressure from local 
communities to improve water quality and reduce odor can be partially 
mitigated by RNG projects in several ways. First, DTE pays dairy 
farmers a share of the revenues earned from the sale of RNG, allowing 
these primarily family owned businesses to realize value from a waste 
byproduct. Second, we create new, well-paying construction and full-
time jobs in order to develop, operate, maintain, and support the 
complex systems required to produce RNG. Third, the process used to 
produce RNG can reduce the number of pathogens within the manure and 
thereby lower the risk of groundwater contamination.\3\ And last, but 
not of least importance to dairy communities, many of the volatile 
compounds that contribute to odor are destroyed in the RNG production 
process.
---------------------------------------------------------------------------
    \3\ https://farm-energy.extension.org/pathogen-reduction-in-
anaerobic-digestion-of-manure/.
---------------------------------------------------------------------------
    RNG is a unique solution in the battle against climate change. 
Harmful methane emissions are captured to fuel vehicles or other 
beneficial uses, American farmers benefit financially, well-paying jobs 
are created, and both air and water quality in rural communities can be 
improved.
    In order to encourage investment and expand access to RNG, project 
developers require stable and transparent policy mechanisms that 
promote the use of low carbon fuels and clean energy. We ask this 
committee to understand, support, and help stabilize existing policies 
that have driven investment to date and to develop new and additional 
frameworks that enable the market to realize the full potential of RNG. 
These additional mechanisms could include the allocation of funds for 
R&D to drive technology advancement, tax incentives that are at parity 
to those for renewable energy sources, and sensible stimulus designed 
to promote the development of natural gas-powered vehicles and other 
RNG uses.
    RNG is a prime opportunity--available today, using today's 
technology--to reduce methane emissions economically, decrease reliance 
on fossil fuels, and support American farmers. I appreciate your 
attention, and I look forward to answering any questions you may have. 
Thank you.

    Ms. Castor. I want to thank you. A fantastic job from all 
the witnesses.
    At this time I recognize myself for 5 minutes for 
questions. So the existing Farm Bill has a number of 
conservation initiatives. They have been crucial in providing 
technical assistance to farmers and financial incentives to 
help implement climate smart ag practices such as the 
Conservation Stewardship Program, Environmental Quality 
Incentives Program, the Conservation Reserve Program.
    They all seem to move us in the right direction, but if 
agriculture is going to be part of major climate solutions, 
solutions for the lands and from the lands, it seems like we 
are nowhere near the scale that we need to be.
    Mr. Yoder, give us some advice on the scale, on how 
significantly we need to scale up these initiatives. Which ones 
work especially well, and which ones need to be expanded in 
some way?
    Mr. Yoder. Well, to be clear, there is some really good 
programs that you just mentioned that we can utilize, but the 
problem we have is we just don't have enough boots on the 
ground. I know farmers that have been waiting for up to 2 years 
before they get their, like, an interim management plan that 
they can improvise, you know, as they go through this.
    I would like to see a program where--and maybe I am more of 
an innovator--but I would like to see a program where you can 
be involved with these programs but also have some sort of safe 
harbor provision where, you know, there is farmers out there 
trying new things and things that we haven't even thought about 
yet that might be a really, really good solution to some of 
these things.
    And so, again, it is going to have to be--you are going to 
have to have a lot of research out there and a lot of places 
where different things work in different watersheds. That is 
the one thing that we don't have the luxury of doing is a one 
size fits all. There is plenty of watersheds out there. There 
is plenty of different volumes of water. There is plenty of 
different soil types.
    There is thousands of different soil types, so we can't 
find a one size fits all, but we can provide tools for the 
toolbox that they can all implement on their particular farm. 
And this is a massive undertaking, but the potential is just 
enormous. In fact, I look at it as the low hanging fruit for a 
climate change solution.
    Ms. Castor. So to speak.
    Mr. Yoder. Yes.
    Ms. Castor On our trip to Gainesville and the University of 
Florida, and then out on the timber ranch in August, I was 
impressed with the depth and breadth of knowledge by our 
agricultural extension service through the land grant 
universities in partnership with State and local officials.
    It seems like they are trusted, but they are just skimming 
the surface right now. Does everyone agree that we would need 
more scientists and technical help for farmers and agriculture?
    Okay. Dr. Moore-Kucera, you have a lot of experience with 
this. Talk to us about the scale of these current Farm Bill 
initiatives and then what is not under the Farm Bill rubric 
that we should be thinking about as well.
    Dr. Moore-Kucera. Are you referring to the conservation?
    Ms. Castor. Yeah. Talk to us first about how much we would 
need to scale those initiatives up.
    Dr. Moore-Kucera. There is a lot of room for opportunity 
and scaling, specifically targeting soil health practices that 
have a lot of co-benefits that I mentioned earlier about 
improved water quality, air quality, water quantity, and all of 
these issues to try to bring it back to other mitigation 
opportunities, reduce floods, and reduced inputs.
    So there is a lot of opportunities that we can have and 
research, and as Mr. Yoder mentioned, increased boots on the 
ground and resources for our conservation service and extension 
organizations I think is really critical.
    Ms. Castor. Ms. Owens, you were specifically focused on 
soil health and advised us to invest in the science there, 
technical expertise, and it occurred to me that for the United 
States of America, we have always been a leader in these type 
of agricultural scientific initiatives. And you think of the 
challenge with increasing carbon pollution around the rest of 
the world, in the developing world and the technical help they 
are going to need to sequester carbon and implement smart 
farming practices.
    You have an international company here. How important is it 
that the United States of America is a leader and develops 
these technologies that we can export to other countries.
    Ms. Owens. Well, thank you, Chair. For our own part, we are 
an international company headquartered out of Paris. However, 
the U.S. is actually our largest single market. So as a 
company, we are focused on the impact that we can have within 
the U.S.
    You and I have spoken a little bit earlier about the United 
States' ability to actually position itself as a leader for 
practices around the world, and I agree that that is an 
important point.
    You had also asked earlier around scale. And while it is 
important that we align our research institutions and the 
government towards a single goal such as soil health and 
climate mitigation, to the point made from some of the other 
witnesses, I would like to add that boots on the ground is 
actually a very clear need. And one of the ways that we could 
offer a new partnership to do that is actually utilizing the 
scale of international food companies or others that are 
operating within the U.S. and utilize the supply chain that we 
have for additional implementation with those farms with which 
we partner.
    Today that is not the model that is used. It is state by 
state, farm by farm, and we would open the door to having a 
conversation about a new day where the existing model of the 
Farm Bill and the way that payouts happen is used but at a 
different scale than farm by farm, county by county, state by 
state.
    Ms. Castor. Thank you.
    Mr. Graves, you are recognized for 5 minutes.
    Mr. Graves. Thank you, Madam Chair.
    Ms. Owens, if the U.S. is your largest market, we welcome 
your headquarters being relocated here. We have French speakers 
in Louisiana, so----
    Dr. Moore-Kucera, I wanted to make sure I understood some 
of your comments earlier. Right now under the Farm Bill we did 
last Congress, we have about $2 billion invested in 
conservation programs, voluntary programs. You indicated, and I 
want to make--I don't want to put words in your mouth. I want 
to make sure I am understanding. You indicated basically 
building upon those, or recalibrating those, or introducing new 
ones, or all of the above. Could you clarify?
    Dr. Moore-Kucera. Well, actually, that gets more into the 
policy component of AFT. I am here as a scientific technical 
expert, and I would have to defer to our policy team to further 
expand on those questions.
    Mr. Graves. Okay. If you could do that in writing after the 
hearing----
    Dr. Moore-Kucera. Absolutely.
    Mr. Graves [continuing]. That would be helpful. I want to 
understand if you believe that some of the existing 
conservation programs, or if your organization does, if those 
are sufficient; if they were expanded, more dollars invested; 
or if you are talking about new types of incentives or 
voluntary programs, just a better understanding.
    Dr. Moore-Kucera. I think we need both opportunities, 
actually.
    Mr. Graves. So expanding on existing programs and also 
adding new. Okay. Thank you.
    Mr. Yoder, in your testimony, and also according to some of 
the folks that we have met with, I understand that NRCS 
technical staff may be insufficient to address the demand. 
Could you expand upon that a little bit and where you see that 
as being a problem?
    Mr. Yoder. Sure. In my State, Mr. Terry Cosby is the leader 
of the NRCS in our State. And one of the things that he is 
hampered with is there is not even a member of NRCS staff in 
every county, and so there is a lot of demand, and these people 
are fantastic. It is just they had a hiring freeze on for a 
while. I guess now they can hire again.
    Mr. Graves. So how does that impede our ability to advance 
conservation initiatives?
    Mr. Yoder. Well, one of the things that you find out here 
in the countryside is the culture of agriculture, you know, the 
thing that is sort of difficult is all productivity is not 
created equal.
    So you could have very productive farms, and in some ways, 
it is almost--I don't want to blame the land grant 
universities, but we were always told you add this, this, this, 
and this, and you will get, you know, a crop, and it is true. 
But we haven't been paying a lot of attention to the soil 
health, you know.
    When you look at the amount of top soil we burned through 
in the last 60 years, it is terrible. And if we burn through 
the same amount of top soil in the next 60 years, we won't have 
any left.
    Mr. Graves. Do you participate in any of the conservation 
programs?
    Mr. Yoder. I don't participate in any of those programs, 
but every bit of my farm, my 1,500 acres, is all no-till, and 
we raise cover crops on every single acre.
    Mr. Graves. That is great. That is great. The last question 
for you, Mr. Yoder. As you know, over the last few decades, 
there have been substantial changes in ethanol policies that 
have had an impact on crops grown, including proliferation of 
corn.
    How have you viewed that as having an impact on kind of the 
land use, soil conservation, and health?
    Mr. Yoder. Well, data will tell you that you can actually 
build soil by raising corn, and one of the things that you hear 
in the media and other places and some NGOs, you know, is that, 
you know, big bad corn is tearing our soil away, and that is 
not true, if it is done no-till.
    The other thing too is, say, for instance, bio ethanol. The 
way we weighed bio ethanol 15, 20 years ago is nothing like it 
is today. So today, if you do it with conservation practices, 
you can actually--I mean, even with conventional bio ethanol, 
you are at 35 percent better than petroleum gasoline, but you 
can get up to actually qualify--I mean, statistics wise, that 
is advanced biofuels. So it is different today, the 
improvements we made with bio ethanol performance.
    Also, biodiesel is phenomenal. So as it keeps getting 
better and better, we have to be recognizing that it is not the 
same as it was just a few years ago, so we are much more 
efficient today than we ever were.
    Mr. Graves. Thank you. I am trying to get our chair down to 
Louisiana so she can see our green diesel facility in 
Louisiana.
    The last question very quickly, Mr. Amin. You mentioned the 
renewable natural gas. You mentioned the need to transport it. 
Obviously to the extent we move to more natural gas vehicles, 
renewable natural gas vehicles, you are going to change sort of 
the transportation routes that they would go.
    So I assume that means that we are going to need natural 
gas or renewable natural gas infrastructure to be able to 
transport that gas to the right locations. Is that fair?
    Mr. Amin. That is very fair. We absolutely depend on 
natural gas infrastructure, and as this market grows, we see 
continued development of that infrastructure as necessary.
    Mr. Graves. So we would need to build new natural gas 
pipelines in order to transport the gas to places where it is 
needed?
    Mr. Amin. Absolutely.
    Mr. Graves. Thank you. I yield back.
    Ms. Castor. Next is Ms. Brownley, but I want to say when I 
was able to visit Ventura County, you wouldn't think of it out 
there in the west as being a big farming community, but more 
strawberries than just about anywhere else. But Congresswoman 
Brownley took me to a tomato grower who has a very sustainable 
practice, and the community model was very impressive. So you 
are recognized for 5 minutes.
    Ms. Brownley. Thank you, Madam Chair, and I thank the panel 
for being here.
    Dr. Moore-Kucera, I wanted to ask a question. I know that 
the University of California at Davis has been doing some 
research around composting and that composting mixed with cover 
crops is a better solution than just cover crops in terms of 
reducing the carbon footprint. At least that is what their 
study is saying, and certainly now in California, there is a 
law now called California's Healthy Soils Program which farmers 
who are doing this can get some assistance for continuing to do 
it.
    So I think you stated in your testimony that you have been 
doing some research around composting as a greenhouse gas 
reduction tool. Could you share with us a little bit about that 
research?
    Dr. Moore-Kucera. Well, we haven't been doing research 
specifically on that topic, but it is one of the practices that 
we are looking at to address the contribution of greenhouse gas 
reduction and carbon sequestration potential across the U.S., 
coupling comet planter, the USDA tool for that, and so compost, 
there have been very successful programs in California applying 
that waste stream on range lands with significant increases to 
soil carbon contents, and so that is a very encouraging 
program.
    And then as you mentioned, coupling compost. As we add 
conservation practices together, they often become more 
synergistic, so coupling compost with cover cropping then 
enhances that cover crop to perform the functions that it is 
designed to do. So the synergies are really important, and then 
also taking that waste out of that stream is a significant 
reduction.
    Ms. Brownley. Mr. Yoder, you said you have no till cover 
crops. Do you use composting also?
    Mr. Yoder. I sure do. I love chicken litter too.
    Ms. Brownley. Very good.
    Mr. Yoder. My neighbors don't exactly like it when I put it 
on, but we also use a product called Com-Til which is basically 
composted bio solids. It doesn't smell at all. You put that 
soil amendment with additional cover crops, and I can't believe 
how my soil has improved over the last 15 years. I mean, you 
know, it sounds kind of old and goofy, but my dad said, you 
know, all I ask when you take the farm is you leave it in 
better shape. It is the most productive it has ever been, and 
it is because of some of these practices.
    Ms. Brownley. I have also been told that, you know, one way 
to collect more carbon in the soil is to begin to manipulate 
the seeds so that the seeds are producing longer roots into the 
soil. Has there been any research that anybody is aware of 
around that piece?
    Mr. Yoder. Well, there certainly is. There is certainly a 
lot of research and selection for genetics. In fact, one of the 
things that really aids the deep penetration of roots is 
actually no till because as you have a crop and you have roots 
that decay, the porosity of the soil is greatly increased.
    One of the greatest things that ever happened to me, this 
was years ago--I went to a field day, and they opened up a 
field tile that had been--this farm had been no-till for many 
years. And I thought well, because everybody thought--I mean, 
conventional wisdom says well, the ground is obviously hard and 
can't get--they put a smoke bomb in that tile, and all over the 
field, the smoke came out, and it just told me the porosity of 
that soil was better than any kind of conventional soil than I 
have ever had. That is when I decided I am doing something 
wrong, and that is when I decided to switch to no-till.
    Ms. Brownley. Very good. And, Mr. Yoder, in terms of all 
the good things that you are doing on your farm, would a carbon 
credit or a carbon fee be something that you would want to take 
advantage of?
    Mr. Yoder. You betcha. I would love to see--I would love to 
see us--you know, this is a great example of this year in Ohio. 
About 50 percent of the crops did not get planted, and luckily, 
we are in the retail business. We sold a lot of cover crop seed 
to get on those bare fields.
    And there was some help from NRCS as well as the whole 
market facilitation program, and to get farmers to just put 
their toe in the water and see what a cover crop will do. There 
is such a thing called a fallow degree where the ground is 
fallow, and you don't have anything growing. The microbes all 
dry up and go away and die. So it is important for me, no 
matter what, to have something growing on that farm, that 
field, at all times, and that way, it is ready for the next 
crop.
    Ms. Brownley. Thank you so much. My time is up, and I yield 
back to the chair.
    Ms. Castor. Mr. Carter, you are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair. I appreciate that.
    Thank you all for being here. This is extremely important. 
I have always said as we address climate change, we cannot 
leave rural America behind. We have got to make sure that we 
include it. I have the honor and privilege of representing a 
very rural area, and particularly in the western part of my 
district in south Georgia, we have a lot of agriculture, and it 
is extremely important to our economy. The number one economy 
and the number one industry in the State of Georgia is 
agriculture.
    I am very proud of that, but, you know, the American farmer 
literally feeds the world. We have to remember that, and we 
have to make sure that we do everything we can. A lot of people 
take it for granted. You ask people a lot of times, where do 
you get your groceries from? They say from the grocery store.
    You know, they don't understand where it comes from, and 
that is why I am just such a great fan of the farmers and 
particularly in our area.
    Precision agriculture. Ms. Owens, are you familiar with 
that?
    Ms. Owens. Yes.
    Mr. Carter. Ok. And that is certainly something over the 
last decade that we have really stressed, and I just wanted to 
ask you. Do you think that prescision agriculture can be a way 
that we can bring down carbon emissions as well as save money 
for farmers?
    Ms. Owens. That is a great question. Thank you, Congressman 
Carter. The answer is definitely yes, and I talk about data in 
my opening statement, and we have partnered with a platform 
called Eco Practices which is part of Sustainable Environmental 
Consultants, and they are actually working on aggregating all 
of the different data points from farms, but bundling it in a 
way that the farmer can actually make sense of it and make 
really detailed decisions based off of it.
    So whether it is the data from their combine, you know, 
from my John Deere, or the economic system that they use to 
track what is happening on their farm or how they are tracking 
yield. What we are working on now is actually how you use that 
precision ag information to project for the farmer as they 
adopt soil-friendly practices----
    Mr. Carter. Sure.
    Ms. Owens [continuing]. How it actually contributes to 
their profitability over time and how it projects to help with 
their resilience related to climate change.
    Mr. Carter. How important is broadband to rural areas and 
precision agriculture?
    Ms. Owens. Well, you would need broadband in order to have 
the farm have access to all the different tools that are 
available today.
    Mr. Carter. How can we help? I serve on the Energy and 
Commerce Committee, and this is something we talk about, 
getting broadband to the rural areas. You know, what can we do?
    Ms. Owens. I think it would be interesting to have a policy 
that broadband is actually a requirement. I myself have always 
lived in a rural area. I have always had terrible internet, so 
I would love it if the committee would make a recommendation 
around broadband related to agriculture because it would affect 
me as well.
    Mr. Carter. Would it help you, Mr. Yoder?
    Mr. Yoder. Thank you for bringing up broadband. You bet it 
would because all these new technologies that we are enjoying 
today, whether it is, you know, integrated with the machinery 
itself, it is all dependent on signals either from internet or 
satellites or from the phone lines or whatever. It is 
absolutely crucial.
    The problem we have is lack of capacity. We are pretty good 
where I am at right now from just out of Columbus, Ohio, but I 
talk to my friends out in the bare spots. It is terrible.
    Mr. Carter. It is awful in south Georgia.
    Mr. Yoder. It is absolutely awful. That is a big part--data 
is a big part of precision. We are precision ag dealers as 
well, and my goodness. I will give you an example of how 
important data precision is. We put a high speed planting kit 
on our planter, and we literally saved 3 days of planting.
    Mr. Carter. Absolutely.
    Mr. Yoder. And this year, you know, we had a minimum of 10 
days, that was it, that we had to plant, and we got it planted.
    Mr. Carter. All right. Let me get to one other thing that I 
want to mention. Tier 4 engines. Are you familiar with that, 
the tier 4 engines? The EPA has gone to--now they are requiring 
tier 4 engines.
    We had a problem with this with our bar pilots, our harbor 
pilots. They couldn't actually build the boat the size they 
needed it to in order to fit the tier 4 engines. Now I have got 
the farmers coming to me and saying they are requiring me to 
have a tier 4 engine. I can't buy wheels that will get through 
the rows and the crops.
    And the thing about the tier 4 engines is that the 
environmental benefit you get from going from a 3 to a 4 is 
just not as good as it was going from a 2 to a 3.
    Ms. Owens or Mr. Yoder, any of you all have any experience 
with that?
    Mr. Yoder. We experience it every day. We have the 
transition to tier four, which are fine. That is like a big 
giant catalytic converter. But with our tier four semis and big 
tractor, you got to have the DEF--diesel emissions fluid or 
whatever, and anyway, it is a pain in the rear end.
    Mr. Carter. Sure it is. Well, thank you all. Ag is 
extremely important. I know that is why we are here. But just 
out of curiosity, you all know what the number one forestry 
state in the nation is? It is the State of Georgia. Thank you 
very much.
    And I yield back, Madam Chair.
    Chairwoman Castor. I have heard this. I have heard this.
    Next is Mr. Huffman, and I do want to say, Mr. Huffman, we 
have all been thinking about you in your district with raging 
wildfires in northern California, so it is good that you came 
back for the hearing. You are recognized for 5 minutes.
    Mr. Huffman. Thank you very much, Madam Chair, and 
appreciate all the concern many of my colleagues have 
expressed. My district just got through the last of a 
particularly harrowing windy night with pretty limited damage, 
so we think we are in a better place today. The last exchange 
between Mr. Carter and Mr. Yoder and others about broadband, 
and much of the conversation we are having here today, really 
highlights the fact that there are aspects of this problem-
solving exercise when it comes to agriculture that really can 
bring us together and I think there are so many things that we 
share common interest in, but before we go further into that, 
this is the obligatory point where I have to push back on Mr. 
Graves for his pep rally on behalf of natural gas, okay. Those 
of us that believe we are in the middle of a climate crisis, I 
think, also have to accept that we just don't have time for 
fake solutions, and the idea that somehow U.S. natural gas if 
it outcompetes Russian natural gas is somehow going to make us 
better in the face of this climate crisis is a little bit like 
the captain of the Titanic saying our only choice is to steer 
the ship into a U.S. iceberg or a Russian iceberg. I think we 
have got to change course here folks, and we know that at some 
where between 3 and 3 and a half percent loss from the wellhead 
to the point of combustion, natural gas is just as bad for the 
climate as coal.
    So let's stop pretending that promoting U.S. or any other 
natural gas is a solution to this climate crisis. It is just 
not. It is actually going to make it worse. But Mr. Amin, I do 
want to believe that renewable natural gas as part of our 
portfolio of solutions for making agriculture part of the 
solution instead of a 10 percent net emitter could be something 
that we can do. I want to give you a chance to address that 
potential friction, though. If we believe from a policy 
perspective we need less reliance on fossil fuels and natural 
gases that are not renewable, but we think you are on to 
something that could be a good idea, is there a way to 
reconcile those two or is the success of your industry 
absolutely dependent on continuing to build out this fossil 
fuel infrastructure that, frankly, takes us in the wrong 
direction on the climate crisis?
    Mr. Amin. So we believe that renewable natural gas is a 
near-term and immediate solution that is available today 
commercially to help resolve the climate crisis. There are 
other carbon mitigating solutions out there; electrification 
gets discussed quite a bit. That is a longer-term solution and 
it is not applicable to every end use. And particularly----
    Mr. Huffman. I guess what I am asking specifically is if we 
want to support renewable natural gas, do we necessarily have 
to support the bigger play on natural gas infrastructure and 
natural gas dependency that includes an awful lot of 
nonrenewable?
    Mr. Amin. We certainly depend on natural gas 
infrastructure. We need pipelines.
    Mr. Huffman. I think that unfortunately answered the 
question. To the rest of you, I am wondering when we talk about 
all of these exciting practices, no-till practices and cover 
crops and there were less specific references to other 
practices that can make a tremendous difference. Ms. Owens, you 
talked about some of that.
    I have people in my district, like the Marin Carbon 
Project, that are doing a lot of research on this and they 
believe it shows a lot of potential, but I am really wondering 
if we are told that agriculture is 10 percent of our greenhouse 
gas emissions in this country, what would it take to make 
agriculture part of the solution to either get to zero or net 
positive? Have any of you run the numbers? Is there a set of 
specific practices that could be scaled up to specific levels 
that you can recommend to us? I would just open that up to any 
of you that want to elaborate.
    Dr. Moore-Kucera. So that is some of the research that we 
are working on today. I mentioned that was current and 
projected adoption of cover crop in conservation tillage we can 
get to about a quarter of the total ag emissions, and if we 
couple that with various practices that target nutrient 
management, renewer management has already been mentioned, 
conservation crop rotations, mulching, compost, etc., there are 
lots of different ways to get there, so we are making 
progress----
    Mr. Huffman. Do you have some metrics? Like if we did this 
much of it, we would get there? Are we able to make those kind 
of calculations?
    Dr. Moore-Kucera. We are in progress doing that right now, 
yeah. I think it is important to mention that different--the 
best management or the best practice that has the greatest 
greenhouse gas reduction isn't the same across the country or 
even across the states, so it is important to have that 
regionalization that we mentioned earlier.
    Mr. Huffman. If the chair allows, I would certainly welcome 
any other answers.
    Chairwoman Castor. Sure.
    Mr. Yoder. Well, it comes down to economics, for sure and 
that is how you get a farmer to invest in a new practice. One 
of the things that we participated earlier with was the study 
from Environmental Defense Fund where do cover crops actually 
pay for themselves, and we went through where our farmers one 
of about four in the whole Midwest and we went through the 
whole thing, not necessarily about what it actually contributes 
to greenhouse gas sequestration, but what is the dollar value 
for putting those cover crops in place, and we found out from 
our numbers on our particular farm that the cover crops more 
than paid for themselves and had a 2 to 5 percent increase in 
yield, but--that may seem small, but over the time, over many, 
you know, more years, your soil becomes much, much better and 
more resilient so you actually build a lot of risk management 
by doing that over time. I look at my soil as my 401(k), that 
if, you know--and that is the problem with bankers. They look 
at things on a return on investment for 6 months. You need to 
look at this--give it 5 years, you will get your money back.
    Chairwoman Castor. Mr. Griffith, you are recognized for 5 
minutes.
    Mr. Griffith. Thank you, Madam Chair. I yield to Mr. 
Graves.
    Mr. Huffman. Oh, here we go.
    Mr. Graves. My friend who just got an extra minute and a 
half, is he the one that is objecting? Thank you, Madam Chair. 
Thank you, Mr. Griffith, for yielding the time. Number 1, Madam 
Chair, I want to point to the IPCC report specifically. The 
supplement AR5 that refers to the migration to natural gas as a 
cleaner energy solution, reminding my friends that often cite 
the IPCC report. Number 2, Madam Chair, I would like to submit 
for the record a graphic demonstrating the United States has 
reduced emissions more than the next 12 emissions-reducing 
countries combined. Number 3, I want to submit a graph showing 
that the State of California under their aggressive green 
energy solutions have increased their dependence upon Saudi 
Arabian imports of oil. Number 4, I would like to submit for 
the record a news report showing that in the northeast their 
aggressive greenhouse gas reducing policies resulted in 
increasing the utilization of home heating oil and becoming 
dependent upon Russian natural gas. Lastly, in response to my 
friend from Georgia, I would like to submit week 10, the AP top 
25 that shows LSU is number 1. And my friend from Georgia is 
down to number 8.
    I yield back.
    Chairwoman Castor. We will review those documents and then 
handle the UC at the end of it.
    Mr. Huffman. Madam Chair, would you submit all the usual 
rebuttal documents?
    Chairwoman Castor. Yes.
    Mr. Griffith. Reclaiming my time.
    Chairwoman Castor. Mr. Griffith.
    Mr. Griffith. Thank you. Let me just say that coal is not 
dead either and that what we have to do is have parity in our 
research on all of our fuels because coal and natural gas are 
great, but we have to make sure that we are not increasing our 
carbon footprint and/or, in fact, reducing that--and a lot of 
research and you can see clips from Energy and Commerce and you 
will see me talking about all kinds of great research that is 
going on. That being said, Mr. Amin, how many cows do you need 
to make it feasible to have one of your anaerobic digesters on 
your property if you are a farmer, because most of my farmers 
are relatively small?
    Mr. Amin. Size can vary quite a bit, and these projects are 
scalable. So there is no precise formula, per se. I can tell 
you the farms that we have cited at have been anywhere between 
1,500 cows per farm to 10,000 cows per farm.
    Mr. Griffith. And so the problem is, I don't have that many 
cows on any single farm in my district and so that creates a 
problem. Now, let me ask this, because I do think the concept 
is one that is worthy, how do you get it to the pipe? How do 
you get your RNG to the pipe?
    Mr. Amin. So we can transport RNG by pipeline through a 
direct interconnect with a major interstate pipeline or we can 
truck the gas there.
    Mr. Griffith. Practically, you would have to be close 
enough to a pipeline to make that work?
    Mr. Amin. Practically speaking, yes.
    Mr. Griffith. Okay. Now when you finish getting the methane 
out of the manure, what do you do with it?
    Mr. Amin. So we take that manure--we don't take the manure, 
the farmer takes that manure and applies it to the land as 
fertilizer when the farmer needs it.
    Mr. Griffith. So Mr. Yoder could buy some of that if he 
wanted to to put on his property because I heard him talking 
about using chicken litter and other types of manure on his 
property?
    Mr. Amin. I think.
    Mr. Griffith. All right. That works. Good. We found a way 
to marry these two and that is good. Let me get into the 
broadband discussion with the time that I have left. I 
represent the most rural parts of the Commonwealth of Virginia, 
so don't think of my district as being like Northern Virginia 
and all that traffic. We have got lots of traffic issues on I-
81, but once you get off of 81, you don't have that and we have 
lots of places, including Montgomery County, home of Virginia 
Tech, where because of the way of the lay of the mountains go, 
we don't have service. We don't have broadband. You can be 
three miles outside of Blacksburg, Virginia, one of the most 
wired communities in the country and not have any service. 
There is new technology coming for our rural areas. We are 
working hard to get mapping that is proper, but we have--there 
is some white space technology out there that I think Microsoft 
has been working on. There are two or three companies working 
on low altitude satellite service. I think within the next few 
years we are going to have a lot more broadband available so 
that our farmers, even on the small farms that don't have a 
thousand cows, we can use modern technologies and go forward 
with that. I do appreciate that as well.
    Ms. Owens, let's talk soil, because the problem with the 
federal government often is, is that we get into these 
discussions and we come up with one or two or five sizes and 
Mr. Yoder said there are thousands of kinds of soils, and I 
learned that as a young lawyer when I had a case that I thought 
was a clear winner because somebody had diverted water on 
somebody else's property, it broke the foundation in their 
house, and then I found out that the soil around that 
particular house held water to such an extent that it was the 
natural soil, the water in the soil, and not the diversion, 
that popped the foundation. So how do we get a policy when we 
have thousands of soils? How do we have a policy that everyone 
can apply?
    Ms. Owens. Well, I am not the scientist on soil. We are 
working with folks who are scientists on soil, and I think what 
you have seen is consensus from this panel and the fact that 
soil is central to the entire equation as well as the fact that 
we need a systems approach that is unique to each region of the 
country.
    Mr. Griffith. Well, in this case, it was not only each 
region; it was like neighborhood to neighborhood. Some 
neighborhoods have radon, some don't. I mean it changes. Madam 
Chair, this is important discussion and I think there is a lot 
of common ground not withstanding our good-natured poking back 
and forth. There is a lot of common ground where we can make a 
positive difference using common sense approaches particularly 
in agriculture to solve some of these problems.
    I yield back.
    Chairwoman Castor. I agree. Mr. Casten, you are recognized 
for 5 minutes.
    Mr. Casten. Thank you, Madam Chair. Thank you all so much. 
So my colleagues have heard me say this before, my view is that 
its super easy to solve the climate crisis. We only have to do 
three things: We have to cut our energy use per dollar GDP in 
half which would take us to where our best in class trading 
partners are. We have to invent whole new technologies to 
figure out how to decarbonize industries that we have no idea 
how to decarbonize, like fertilizer manufacturing. And then we 
have to take about a hundred parts per million out of the 
atmosphere to get back to a stable level. If we do all those 
three things, we are set. The first of those is economically 
acreative, the second one is potentially acreative because we 
will invent whole new industries, the third is really, really 
hard. Except in the agricultural space where at least, 
theoretically, by increasing soil carbon content and picking on 
the last, we can increase productivity and there is some 
interesting data on how do that. And so I want to focus on that 
and I would like to start with you, Dr. Moore-Kucera; is it my 
understanding that most of the programs that encourage various 
agriculture practices from no-till to cover crops, et cetera, 
are essentially practice based rather than performance based? 
You don't get a differential incentive to do something that is 
going to raise more carbon? It is do this, do this, do this, do 
this? Is that a fair characterization?
    Dr. Moore-Kucera. I am sorry. I don't totally understand 
your question.
    Mr. Casten. Well, let me maybe ask it a different way. 
Congresswoman Brownley had asked whether a carbon tax or fee or 
something like that would be appropriate. Do we actually have a 
way to understand this changing agricultural practice will lead 
to this much quantifiable precise change in the carbon 
absorption in the soil?
    Dr. Moore-Kucera. There are a variety of tools. The 
quantification and verification steps with soil carbon is very 
critical and a lot more research needs to go in that direction. 
There is a lot of new novel ways that we can measure carbon 
quickly and so developing a platform that is consistent and can 
be validated across various regions is a critical component. We 
currently have the ability to do that now, it is just very 
expensive.
    Mr. Casten. So this was my point about practice based 
because it is really hard if we can't quantify the baseline in 
a consistent way, then it is hard to know what the change is, 
but I agree we should do it.
    Mr. Yoder, can you just help us understand, and if anybody 
else has insight, Ms. Owens, I know you and I talked about this 
a little bit yesterday as well, what is the range before we get 
to the actual hard numbers on a percentage basis, seasonal 
changes, slope changes, weather changes, soil type changes, 
what are we talking about with all these various agricultural 
practices? How wide is the error band, if you will?
    Mr. Yoder. It can be very wide. One of the things we are 
going to have to eventually get to is outcome based rather than 
just practice based because Dr. Rutan Lao from Ohio State 
University has done a lot of work on this and where we can 
sequester particular amounts in my soils. If you go to Nebraska 
under sandy soils, it doesn't work the same. So the same 
practice has the different results, so that is why we have to 
really come down and understand each and every soil type and 
custom create a program that is going to work for that 
particular soil. It is, again, a one size fits all, you are not 
going to get to where you need to be. If we are going to really 
make a difference in the climate, we need to have a metric that 
we can count on that you do this--this can be counted on to do 
this much in this particular area, but you can't do that until 
we finally get a metric that we can count on.
    Mr. Casten. Maybe we have to stay with a more practiced 
based system, too. So help me--do any of you have any estimates 
of on an absolute basis, what could we do? If we have got to 
get 100 parts per million down, that is roughly, if I am doing 
my math right, 400 billion tons of CO2 out of the atmosphere. 
If we are looking at the absolute best possible scenario for 
changing agricultural practices that we think would increase 
soil health, are we talking 1 percent of the way there, we 
talking 50 percent of the way there? How big is this relative 
to what we have to do?
    Mr. Yoder. Remember I said earlier you have to look at it 
on a systems basis because you are talking about--there is not 
a silver bullet, there are several different ways--for 
instance, you can reduce greenhouse gas emissions by reducing 
your tillage or your trips over the field or you can reduce 
your fertilizer use by going on more of a type that you only 
fertilize those spots in the field that need it. You can also, 
depending on what crop you do, you know, whether you are 
growing hay or whether you are growing corn, it all has to be 
system based because it is not--we can't have----
    Mr. Casten. I am out of time and I take your point, but I 
would welcome if any of you have a way because we have to 
ultimately figure out how to prioritize the different things we 
can do and I think there is something really important here in 
this panel, but it is really hard to understand like, yes, all 
those things individually are good, but if we are going to 
spend the time as maybe we should to say what is the variance 
by soil type, I think it would be helpful for us to understand 
in the best possible scenario, how big an opportunity is this 
so that we can look about that that the other things are 
competing resources for and I am way over, so thank you.
    I yield back.
    Chairwoman Castor. Mrs. Miller, you are recognized for 5 
minutes.
    Mrs. Miller. Thank you, Chairman Castor. For over 20 years, 
my family and I have owned and operated a bison farm in 
southern West Virginia. We bought our first bull and five 
females from Medford, Ohio, Mr. Yoder. His name was Buster. 
Alpha female was Flossy and they are both long gone. I have 
spent many years at farmers markets selling meats and countless 
hours on the farm caring for the land, for the animals, and one 
of the most important things I learned was protecting our land 
to keep it for generations to come. Probably another important 
thing I learned was, don't hit an animal on the hind end and 
expect it to move in the direction you want, because I have to 
wear this thing for 6 weeks.
    We have seen farming evolve across the generations. We have 
seen farming practices, government suggestions, government 
programs, even in the 20th centuries, that haven't worked, like 
planting multiflora rose. That is a mess and it takes years to 
clean up. We now see farmers utilizing technology in a 
precision agriculture. Farmers are also instituting sustainable 
farming practices that are not only benefiting their crop 
yield, but also the environment. As we move forward in 
considering ways to address climate change, it is important 
that we do not become too prescriptive. Farmers know best how 
to care for their land without cumbersome government mandates. 
Most of you know that the average age in America of a farmer is 
58 years old. For organic farmers, it is 52 years old. For 
beginning farmers with less than 5 years of experience, it is 
47 years old. So we need to keep that in mind as we move 
forward.
    Mr. Amin, is the pipeline infrastructure in the United 
States adequate to meet the needs of the DTE now and for the 
expansion of renewable natural gas?
    Mr. Amin. The infrastructure that is in place today is 
sufficient for what we are doing today. That is correct.
    Mrs. Miller. That is good. Are you selling most of your 
renewable natural gas to particular states?
    Mr. Amin. Most of our renewable natural gas that we produce 
in Wisconsin is being sold into the State of California.
    Mrs. Miller. How are you getting it there?
    Mr. Amin. We are getting there by pipeline.
    Mrs. Miller. Okay. Do you think renewable natural gas can 
help overcome the intermittency problems of other renewable 
energy sources like wind and solar power?
    Mr. Amin. I do believe so because renewable natural gas is 
a dispatchable resource. You can use it when you need it most.
    Mrs. Miller. What are the biggest roadblocks in instituting 
your renewable natural gas technology around the United States?
    Mr. Amin. There are several roadblocks. I would say, number 
1, is being able to access the source, the methane source. 
Generally, we need to be relatively close to a pipeline to be 
able to make that project work. The farther it is from a 
pipeline, it is more difficult to access that particular 
project. So that is probably our number 1 roadblock.
    Mrs. Miller. Thank you. Mr. Yoder, can you describe some of 
the innovations and advancements in technology that you have 
seen to assist the farmers?
    Mr. Yoder. Sure. One of the things that we first adopted 
several years ago was variable rate technology on fertilizer. 
We grid sample all of our fields on, actually, acre grids; so 
for every acre we get an actual reading of what that is and so 
when we fertilize, we found out because--we did it originally 
to cut cost. We found out there was hot spots in the field that 
didn't need any fertilizer at all. We found other spots that 
were very low. So we spent the last several years evening 
things up to try to have more of a uniform field. The problem 
you also have though, that you can't do anything about, is the 
soil types. We saw that this year with our yields. This year, 
we are not quite done yet. Actually, I came out of the field 
yesterday--from the corn field--to be here today, but we found 
lower yields this year because we had a real wet spring and 
then we had a very dry July and August, but surprisingly the 
way we are farming today, our farm still produced much better 
than what our neighbors did because of the tilled.
    The other thing that we have used in our farm is we put 
precision parts on our planter. It is actually a high-speed kit 
that we put on and so we can go now--we have got a 40-foot 
planter that we put--the high speed which we can go up to 10 
miles per hour instead of the normal five. We don't go that 
fast, but we basically turned our 40-foot planter into the same 
amount of capacity as a 60-foot and we actually cut 3 to 4 days 
off of our planting. And what my neighbors did because they had 
to wait until they could get to it, they didn't get their 
planting done. We got everything planted except for about 150 
acres, so the technology--but the other thing too, is, we got 
all this technology on the planter, we can plant 24 hours in a 
row because it has got all the readouts. We can understand the 
seed to soil contact, exactly how much seed we are putting on, 
the varieties of seed, so we are no longer hampered by day 
light. In the old days if you plant after dark, you are going 
to have trouble. Not anymore because you know--you are making a 
map. Every time you make a trip over the field, you are making 
a map of what you have done. And so those two things--farmers 
love technology, too, and that is the thing. Data is going to 
be the next big thing that we need to do. If we could get our 
hands on the data and just like Tina was talking about, the 
data that each farm generates is wonderful, but just think if 
we could get the data that our own U.S. Government or USDA has, 
what if we could put that together and actually have something 
that we could get some correlations and actually see the trends 
on a big scale. That would be wonderful.
    Mrs. Miller. Thank you.
    I yield back my time.
    Chairwoman Castor. Thank you.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you so much, Madam Chair. Thank you to 
all the witnesses. I just want to briefly follow-up on Mr. 
Carter's comment that Mr. Huffman followed up on about the 
rural broadband and how important that is. There is a little 
farm Seeley Mint up in Columbia County, Oregon, where they 
sustainably harvest spearmint and peppermint. The last time I 
visited, they said, see the tracks down the road? You have to 
go over the tracks and then you have internet, so it is a real 
challenge with the growing business. But I also wanted to 
mention we heard about the importance of small farms in 
agriculture. Summit foods in Cornelius, Oregon, which is pretty 
far west of Portland. We grow grape blueberries in Oregon, and 
Summit Foods dries them, sells them nationally/internationally. 
They take the processing waste, which is fermented and sent to 
their sister company, Summit Natural Energy, where they make 
Thunderbolt Racing Fuel, which the race car drivers like 
because not only is it 100 percent renewable, it also is high-
octane and smells like blueberries. So we are doing creative 
things doing our part with agriculture. I just wanted to 
mention on the same day in August when the IPCC released its 
special report on land degradation and sustainable land 
management, I was visiting 46 North Farm in Astoria, Oregon. 46 
North is participating in a dry farming project with partners 
at Oregon State University's extension service. People think, 
well, it rains all the time in Oregon, but they really don't 
need to irrigate, even during a dry season, because they work 
to conserve soil moisture through dry strategies like the use 
of cover crops, which then help them access water and nutrients 
in the soil later in the growing season. So these practices 
have allowed them to restore a significant portion of their 
land, which is heavily degraded from the previously land owner. 
It is kind of a great example of sustainable agriculture, 
which, of course, on a large scale could help reduce emissions, 
restore carbon, and preserve natural habitats, but also 
providing tasty vegetables and beautiful flowers. Many of our 
ecosystems have been pushed to the brink with their ability to 
naturally adapt, but farmers are natural stewards of the land 
and have direct experience with conserving natural resources, 
and I know their perspectives are really valuable.
    Dr. Moore-Kucera, variable precipitation and rising 
temperatures are intensifying droughts in some places and 
increasing heavy downpours in others reducing snow pack, 
especially in the Pacific Northwest, and leading to significant 
differences in supply and demand, and it really has changed our 
crop productivity. So in your testimony, you outlined the 
substantial greenhouse gas emission reductions from cover crop 
and conservation tillage and you noted that the real and 
perceived risks that farmers face when considering how to adopt 
strategies. So as water supply changes in the Northwest in the 
face of the climate crisis, how can we effectively incentivize 
and encourage more farmers to transition to no-till dry farming 
and cover cropping practices?
    Dr. Moore-Kucera. Yes. Thank you for that question. Climate 
discussions must also include discussions around water, not 
only water quality like I mentioned, but water quantity and 
availability. And so all of the soil health practices that I 
mentioned earlier help to get water into the ground and that 
water is then available later for the plants, so that is a win-
win for sure. You asked about how we can help promote those 
different practices and break down the barriers. I think it was 
alluded to earlier, but the relationship building is critical 
between farmers and conservationists and so communicating that, 
getting workshops, hearing where the farmers are, where they 
are in their success, where they are in their challenges, is 
critical to help move some of those programs forward.
    Ms. Bonamici. Thank you. And to you and also Mr. Yoder, we 
know that smart agriculture practices have other benefits like 
reducing fertilizer runoff. I am the co-chair of the Oceans 
Caucus and the Estuaries Caucus. I've been concerned about 
runoff and pollution from human activities increasing the 
presence of harmful algal blooms or habs in marine, coastal, 
estuary, and freshwater systems, and that has happened in every 
state.
    So I wonder about how healthy soils, reducing dependents on 
fertilizers; I worked on pesticide reductions programs when I 
was in state legislature. What are some other benefits and how 
can healthy soil stewardship practices and how can we 
effectively reduce those pollutant inputs to maximize the 
benefits to our soil?
    Mr. Yoder. Again, I go back to the economic reasoning. 
Okay. For instance, I am from Ohio and we have--we had some 
challenges with algal blooms in the lake area basin because of 
the northwest Ohio--that has been blamed for a lot of it. We 
have a lot of dissolved reactive phosphorus moving which we 
never thought we would ever. When I was in college and you 
talked about phosphors, it never moved more than two inches 
forever. Well, dissolved reactive phosphorus does.
    So what we are trying do is figure out soil amendments to 
stabilize those nutrients, and the best way you can do that is 
a cover crop because it just basically takes up all the unused 
nutrients and waits for the next crop. But it does that, but it 
also, in economic reasons, you can actually lose. And I use 
this argument all the time with farmers. Over $100 an acre of 
some of the nutrients worth that you see go off your farm, that 
is money--a dollar saved is better than a dollar on a gross. So 
farmers are saying, hey, you know, if I can save this--so what 
you do is, you know, these farmers that put on the nitrogen and 
the phosphorus in the fall and they know half of its going to 
be gone--that doesn't make sense. And so we have moved to an 
as-needed basis. Basically, you feed the crop as you take it 
and you do tissue test and you find out what is it needing 
instead of just putting it all on and get it out of the way. We 
have to change our thinking about it. You have to really stress 
the economic value of that, and when farmers see the economic 
values they will change. But they are not interested--that is 
why I said before, there is also controversy. They don't want 
to talk about climate change, but they will sure talk about 
weather pattern changes so that is what they do.
    Ms. Bonamici. Thank you. I am out of time.
    I yield back.
    Chairwoman Castor. Mr. Palmer, you are recognized for 5 
minutes.
    Mr. Palmer. Mr. Yoder, I am interested in your no-till 
farming. I own timberland and we have grain fields for wildlife 
and we did no-till this time, but are you doing corn no-till?
    Mr. Yoder. We are. We are 100 percent no-till.
    Mr. Palmer. How do you do that when your seed has to be at 
a certain depth, soil depth?
    Mr. Yoder. There are so many new tools in technology. Our 
planters got the latest----
    Mr. Palmer. You are doing drilling or----
    Mr. Yoder. No. It is actually a planter, but we control the 
down force. We call Delta Force; that is our brand name. We can 
literally put enormous amount of pressure to get it down to 
where we used to have just springs keeping it down and then you 
get a tough spot, it rises up, and then you wouldn't get your 
depth. This guarantees it is going to be a certain depth. And 
the other thing too about no-till is after continuous no-till, 
your ground actually gets looser and so you can be more 
precise. And we also--we have indications of seed to soil 
contact, we have indications of dropping doubles or skips and 
things like that. So when we go through with the planter, we 
can actually do way more than we did when we used to have to 
stop and dig it out and see what it is like. So technology has 
been a tremendous tool for our efficiency.
    Mr. Palmer. All right. I was--I didn't think you were just 
throwing seed on top of the ground, so I knew you had to 
penetrate the soil in some fashion. I just want to share 
something with you and just get your response to it. The 
statement was that the greenhouse effect would be desolating 
the heartlands of North America and Eurasia with horrific 
drought causing crop failures and food riots. The Platte River 
in Nebraska would be dry while a continent-wide black blizzard 
of prairie topsoil will stop traffic on the interstate, strip 
paint from houses, and shutdown computers. Do you anticipate 
that?
    Mr. Yoder. I hope not.
    Mr. Palmer. I am asking.
    Mr. Yoder. Well, this is what I am stressing----
    Mr. Palmer. Any of you?
    Mr. Yoder. I think you are going to be more effective with, 
instead of scare tactics like what you have been hearing, to 
show farmers the economic value of changing their practices of 
what they have been doing, not only cutting their cost but 
increasing their yields. And if that is going to be a way to a 
solution for climate change, then that will just help things 
along.
    Mr. Palmer. My question is, and to the entire panel, Dr. 
Moore-Kucera, is that a reasonable expectation as an outcome 
for failing to eliminate all carbon emissions?
    Dr. Moore-Kucera. I just think that there is a lot of hope 
and there is a lot of opportunity----
    Mr. Palmer. I am asking, is this a reasonable expectation? 
That is a yes or no. Okay. You won't answer. How about you, Ms. 
Owens.
    Ms. Owens. I would say that we should reasonably expect to 
see some of our societal fabric breakdown if we continue on 
this path of extreme climate change.
    Mr. Palmer. Mr. Amin.
    Mr. Amin. So this is not an area of my expertise per se, so 
I will defer that question.
    Mr. Palmer. Okay. Thank you. That was from Michael 
Oppenheimer who is a climate scientist in the Albert G. Milbank 
professor of Geoscience and International Affairs at the 
Woodrow Wilson School of Public and International Affairs at 
Princeton University and he said that in 1990. And he predicted 
that by 1995, he also said that Mexican police will round up 
illegal American migrants surging into Mexico seeking work as 
field hands. A lot of my problem with this and we--I understand 
the climate's changing, the geologic record shows that, and we 
are so wrapped around the axle about carbon when I think there 
were three scientists were all witnesses called by the majority 
that admitted if we completely eliminated all carbon emissions, 
went to zero emissions, it would not stop climate change. That 
was an accurate answer. It will not stop it. The geologic 
record shows that the climate is changing, it will continue to 
change, and to some of what you have talked about, Mr. Yoder, 
in regard to the technology and Mr. Amin, the science behind 
renewable natural gas is I think how we ought to be approaching 
this. We need to be looking for adaptation and mitigation 
solutions because it is coming no matter what we do. But all we 
are doing is talking about eliminating CO<INF>2</INF> and I am 
for reducing carbon emissions, I am for--we have done a 
tremendous job in the last 34 years in regard to the six 
criteria pollutants that the EPA tracks in reducing that.
    In terms of farming, I mean, we basically have an 
agricultural miracle that has played out over the last 50 
years. So my point is, is that, I want us to get serious about 
being prepared for the climate change that is coming and not 
buy in to a lot of the fake science.
    With that, Madam Chairman, I yield back.
    Chairwoman Castor. Perfect. Next Ms. Pingree, we are going 
to recognize you for 5 minutes. Thank you for your interest in 
this hearing. Ms. Pingree's a farmer herself and one of the 
members of Congress we look to for expertise in this area. You 
are recognized for 5 minutes.
    Ms. Pingree. Thank you so much, Madam Chair. Thanks to you 
and the ranking member and the members of the committee for 
letting me sit in on what has been a very interesting hearing. 
Thank you to the panel for really great testimony and really to 
the committee for such good questions and truly some bipartisan 
areas of agreement, so it has been a pleasure to be able to be 
in here with all of you.
    I am particularly interested in this. I have been an 
organic farmer since the 1970s and I have seen a huge 
transition of when that was, sort of, a funny back to the land 
idea to $50 billion industry and so many practices that happen 
in organic agriculture are the things you are talking about 
today particularly cover crops and composting. I am working on 
myself, on a bill related to agriculture and climate change, 
and so many of the pieces that people have been talking about 
today are a part of that. I have sort of a five-part strategy, 
which is support soil health, promote pasture-based livestock, 
preserve farmland, support unfarm and renewable energy, and 
reduce food waste, so you all have kind of covered it a little 
bit. Food waste didn't come up, but just to mention to the 
committee, in Maine, we have one big bio digester that collects 
from a dairy farm, but also collects a tremendous amount of 
food waste as well and bio digests together and then produces 
electricity on site so there is actually no transportation. I 
also am very, very interested in some of the questions that 
came up around the metrics of understanding how much carbon is 
sequestered in the soil and that is one area that got talked 
about a little bit, but not developed as much today and I have 
certainly met with a lot of different organizations and 
university people who are trying to crack this nut of, you 
know, how do we look at the outcomes and then how do we pay 
farmers for the performance. And I am interested just for any 
of you who want to answer--I mean, one idea is that farmers 
could participate in carbon markets. I come from actually the 
most forested state in the nation, so we have been able to take 
advantage--so I did mention it to my friend from Georgia as 
well--but we have been able to take advantage a lot of the 
offsets because we have that, but we also have hundreds of 
years of developing an understanding of how much carbon is 
produced in a tree. So a lot of this is new, but we would like 
to see farmers take advantage of that. So if you were able to 
participate in a carbon market, if there were some metrics that 
we could all agree on, either developed through the USDA or one 
of these many programs, what do you see as the benefit of that, 
and also, I would say, there is also some talk of a tax credit 
on this? We give a tax credit to wind and solar, what about a 
tax credit on carbon produced? So that is just an area of 
interest, and go ahead and add in whatever you think.
    Mr. Yoder. Well, I thank you for that question. One of the 
things that we deal with a lot is what is good for the land and 
what is good for the farmer. We also have to get buy-in from 
the land owner, and one of the problems we have is an awful lot 
of land is leased on a yearly basis and how do you--for the 
most you can get--money you can get for that land, how do you 
convince the land owner that these practices, which may be 
different than what the farmer's been doing, that it is worth 
it and so that is why I think a tax credit or something like 
that would be really helpful.
    The other thing, too, is, I would like to see us develop 
some different programs just as a starter, just to get farmers 
to stick their toe in the water and try something. I have never 
taken any money to try to these due practices. I actually 
started a no-till to save money, but today I would never go 
back to farming like I used to because I have seen the value 
and the resilience of my soil. For every 1 percent organic 
matter that you increase in your soil, 20 to 25,000-gallon more 
capacity for holding water. And so if you look at it that way, 
and that is how you get to farmers is managing that risk. It is 
making your stuff more resilient that they can actually have an 
economic gain for it, but things--we've got to figure out a way 
to get all farmers interested in looking at different ways to 
do things.
    Ms. Pingree. Ms. Owens.
    Ms. Owens. I would like to add a bit to that. So Mr. Yoder 
actually talked very well about some of the practices that lead 
to economic resiliency within farms and I think that that is a 
much more immediate approach that we can take given what we 
have available using the NRCS resources, and the Farm Bill, and 
other things at our disposable. We are actually as a company at 
the table having the conversation around an eventual carbon 
market, we are supporters of it, and there is a lot of 
consensus that needs to happen in order for that to get off the 
ground. What we can show farmers today is a way to use existing 
tools, data, and the practices that we have talked about 
several times as a panel on how they can actually impact their 
profitability starting within, you know, 2, 3 or less years, 
that they actually can really move the needle. There is some 
great case studies that we like to point to. AFT actually 
published some using funding from NRCS. There is a company 
called Day Two Research that also has open case studies that 
very specifically shows in states like Illinois, Ohio, and 
other midwestern states that there is a very real profitability 
model here for farmers to adopt and that is much more tangible, 
real, and been demonstrated by farmers such as Mr. Yoder.
    Ms. Pingree. Great. Well, thank you very much. I am out of 
time. Thank you so much for letting me sit in.
    Chairwoman Castor. Thank you for your interest. I would 
like to thank our witnesses for your testimony today. It has 
been very helpful. The committee is currently accepting policy 
proposals if anyone has a policy proposal beyond the ones 
addressed today. Please go to our website at 
House.climatecrisis.gov. We have a request for information, the 
due date is November 22nd. So if you have some other 
institutions or advocates or interested parties, other farmers 
who would like to submit some ideas to the committee, please 
pass that along.
    At this time I would like to ask unanimous consent to add 
to the hearing record, number 1, a letter from the Defenders of 
Wildlife with their policy recommendations and, number 2, a 
policy paper from the Breakthrough Institute. And any 
additional questions for the witnesses, the members will have 
10 business days within which to submit those and I ask all of 
the witnesses to respond. Did you have----
    Mr. Graves. I just wanted to make sure that our pile of 
documents was submitted and also I left out a letter by 
Senators--this is Mr. Huffman's favorite--letter by Senator 
Schumer, Menendez, Markey, and Cantwell asking that we increase 
global oil production. Sometimes the truth hurts.
    Chairwoman Castor. They did over a year ago. Okay. So 
without objection, those being incorporated into the record, 
thanks again, everyone. The hearing is adjourned.
    [Whereupon, at 4:13 p.m., the committee was adjourned.]
                               __________

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                            October 30, 2019

                                                  October 30, 2019.
Hon. Kathy Castor,
Chairwoman.
Hon. Garret Graves,
Ranking Member House Select Committee on the Climate Crisis,
Washington, DC.
    Dear Chairwoman Castor and Ranking Member Graves: Defenders of 
Wildlife (Defenders) is pleased to offer testimony for the record for 
the hearing, ``Solving the Climate Crisis: Opportunities in 
Agriculture,'' conducted by the Select Committee on the Climate Crisis 
on October 30, 2019.
    Defenders is a national nonprofit conservation organization 
dedicated to the protection of all native plants and animals in their 
natural communities. For more than 70 years, Defenders has protected 
and restored imperiled species throughout North America by securing and 
strengthening state, national, and international conservation policies; 
working on the ground at the state and local level; and upholding legal 
safeguards for wildlife and habitat in the courts. We represent more 
than 1.8 million members and supporters nationwide.
    Defenders has led efforts to develop and implement climate change 
policies for wildlife for more than a decade. Our work on climate 
change has two main foci: 1) ensuring that wildlife and habitat are 
managed in a manner that promotes resilience to climate change impacts; 
and 2) supporting emissions reduction through wildlife-responsible 
renewable energy development nationwide. We believe it is critical that 
Congress and the administration provide for wildlife, habitats and 
ecosystems as part of a climate change policy agenda.
    Following are policy recommendations for bolstering current 
agricultural conservation programs and establishing new initiatives to 
support wildlife conservation and climate change mitigation and 
adaptation on our nation's working lands.
Increase Annual Appropriations for Farm Bill Conservation Programs for 
        Landowners to Adopt Climate Stewardship and Wildlife 
        Conservation Practices
    Farm Bill conservation programs help farmers and ranchers implement 
conservation practices on their lands, including wildlife conservation 
and climate stewardship practices. Congress should avoid using Changes 
in Mandatory Program Spending (CHIMPS) in annual appropriations 
processes to raid mandatory Farm Bill conservation programs in order to 
fill discretionary spending gaps elsewhere in the federal budget.
Increase Funding for Farm Bill Working Lands Programs to Assist 
        Farmers, Ranchers, and Natural Resource Managers to Adapt to 
        Climate Change Impacts
    Farm Bill working lands programs, including the Environmental 
Quality Incentives Program and the Conservation Stewardship Program, 
provide financial and technical assistance to landowners to implement 
conservation practices on their agricultural lands, including climate 
stewardship practices. Supporting climate stewardship on over 100 
million acres of farmland would reduce or offset agricultural emissions 
by one-third by 2025. Dedicated funding would support practices such as 
rotational grazing, improved fertilizer efficiency, and use of cover 
crops to retain and improve soils and carbon sequestration.
    Example legislation: Climate Stewardship Act (S. 2452) (https://
www.congress.gov/bill/116th-congress/senate-bill/2452)
Increase Acreage Enrolled for the Benefit of Wildlife under the 
        Conservation Stewardship Program
    The Conservation Stewardship Program is a Farm Bill working lands 
program that supports farmers and ranchers to adopt conservation 
practices on their agricultural lands, including climate stewardship 
practices. Defenders recommends that a minimum of 10 percent of the 
acreage annually enrolled in each state under the program directly 
support wildlife conservation. Targeting a minimum amount of the 
program's funds to wildlife conservation will help support landowners 
to implement practices that benefit wildlife, reduce emissions, and 
respond to climate change.
Increase Funding for Conservation Easements on Private Agricultural 
        Lands to Prevent Conversion of Agricultural Land to Development
    The Agricultural Conservation Easement Program is a Farm Bill 
program that that helps landowners protect, restore, and enhance 
wetlands, grasslands, and working farms and ranches through 
conservation easements. The conservation of privately held agricultural 
land helps prevent conversion to development, so that they can continue 
to actively sequester carbon rather than contribute to greenhouse gas 
emissions that results from other land uses. Strategic land 
conservation can also support habitat connectivity and ecosystem 
resilience against climate change impacts.
Increase Funding for Restoration and Conservation Easements on Private 
        Forestlands to Support Carbon Sequestration
    Preserving forests as forests helps prevent their conversion to 
development and allow them to continue absorbing greenhouse gases. The 
2018 Farm Bill reauthorizes three programs that support habitat 
acquisition and/or conservation easements on privately held forests. 
The Healthy Forests Reserve Program (HFRP), administered by the Natural 
Resources Conservation Service, provides landowners with 10-year 
restoration agreements and 30-year or permanent conservation easements 
for the purpose of recovering species listed under the Endangered 
Species Act, improving biodiversity, and enhancing carbon 
sequestration. The program should be improved by allowing land that has 
already been restored and is providing wildlife benefits to be eligible 
for long-term or permanent easements. Like HFRP, the Community Forest 
Program, administered by the U.S. Forest Service, and the Forest Legacy 
Program, administered by the U.S. Fish and Wildlife Service, protect 
forests that are threatened with conversion to non-forest uses.
Support Enrollment in the Conservation Reserve Program that Creates or 
        Enhances Wildlife Conservation and Habitat Connectivity
    The Conservation Reserve Program conserves and improves soil and 
water quality and creates and maintains wildlife habitat by providing 
cost-share and rental payments for farmers to establish long-term 
vegetative cover on highly erodible or environmentally sensitive land 
that has usually previously been converted to crops. For grasslands 
enrolled in the program, the 2018 Farm Bill directs the Farm Service 
Agency to prioritize land of ecological significance, including land 
that would conserve habitat connectivity or federally protected species 
and/or species of conservation concern. We recommend that the Farm 
Service Agency prioritize properties that simultaneously serve both of 
those purposes.
Authorize Perpetual Easements for Land Enrolled in U.S. Department of 
        Agriculture Habitat Conservation Programs
    To increase cost savings and the effectiveness of U.S. Department 
of Agriculture conservation programs, we recommend authorizing 
perpetual easements for land enrolled in any of the Conservation 
Reserve Program or Natural Resources Conservation Service habitat 
initiatives. These new permanent easements should be particularly 
targeted at land enrolled in the Conservation Reserve Program that 
exceeds an erodibility index of greater than 15 or is adjacent to 
riparian areas that should be protected as conservation buffers in 
perpetuity. Perpetual easements extend the conservation investment and 
prevent agricultural land from being converted to development at the 
end of the contract.
Prioritize Enrollment of State Acres for Wildlife Enhancement in the 
        Conservation Reserve Program 
    The Farm Bill's Conservation Reserve Program includes a State Acres 
for Wildlife Enhancement initiative, which allows states to design and 
implement practices that conserve soil and water and also benefit high 
priority wildlife species. However, and despite the success and 
popularity of the initiative, the Farm Service Agency has not made 
these practices available for sign-ups on a nationwide basis since 
2017. We recommend that Congress urge the U.S. Department of 
Agriculture to prioritize enrollment and implementation of this 
initiative.
Increase Acreage Enrolled under the Conservation Reserve Enhancement 
        Program and Compensate Participants for the Full Cost of 
        Riparian Buffer Protection
    The Conservation Reserve Enhancement Program is part of the Farm 
Bill's Conservation Reserve Program that targets high-priority 
conservation concerns identified by a state. Farmers and ranchers are 
paid an annual rental rate along with other incentives to remove 
environmentally sensitive land from production and establishing 
permanent resource-conserving plant species. The 2018 Farm Bill 
codified the program and incentivizes enrollment of riparian buffers, 
including forested riparian buffers, by authorizing the U.S. Department 
of Agriculture to make cost-share payments for forested riparian buffer 
maintenance throughout the term of the agreement, and to cover up to 
100 percent of the cost incurred by the owner or operator for 
maintenance activities. Now the Department must follow through on this 
authorization to compensate program participants for the full cost of 
riparian buffer establishment and maintenance as authorized by 
Congress.
Increase Funding for Natural Resources Conservation Service's 
        Conservation Technical Assistance Program
    The Natural Resources Conservation Service's Conservation Technical 
Assistance program provides land users with proven conservation 
technologies and the delivery systems needed to achieve conservation 
benefits on working lands, such as reducing soil loss from erosion, 
reducing potential damage from natural disasters, and enhancing the 
quality of fish and wildlife habitat. The long-standing shortage in 
funding for technical assistance hampers delivery of conservation 
programs, a problem that will be exacerbated by the need to implement 
new climate stewardship conservation practices on private lands 
nationwide.
    Example legislation: Climate Stewardship Act (S. 2452) (https://
www.congress.gov/bill/116th-congress/senate-bill/2452)
Increase Annual Appropriations for the U.S. Fish and Wildlife Service's 
        Partners for Fish and Wildlife Program for Landowners to Adopt 
        Climate Stewardship and Wildlife Conservation Practices
    The U.S. Fish and Wildlife Service's Partners for Fish and Wildlife 
Program provides financial and technical assistance to private 
landowners interested in improving habitat for migratory birds, and 
endangered, threatened, and at-risk species on their working lands.
Expand the Farm Bill Sodsaver Provision Nationwide to Support Carbon 
        Sequestration
    The Sodsaver provision in the Farm Bill limits the loss of native 
grasslands by reducing federal subsidies for crop insurance premiums on 
acres that are converted from prairie to cropland. Currently the 
provision only applies to the six states of the Prairie Pothole region. 
Extending the provision to the entire country would help prevent 
conversion in other areas, such as Texas and Kansas, that are 
experiencing some of the highest rates of grassland loss. Preserving 
grasslands allows them to continue to actively sequester carbon rather 
than contribute to greenhouse gas emissions that results from 
agricultural conversion.
    Example legislation: American Prairie Conservation Act (S. 1913/
H.R. 3939) (https://www.congress.gov/bill/115th-congress/senate-bill/
1913)
Authorize a Program for Measuring Outcomes of Farm Bill Conservation 
        Programs
    Measuring outcomes helps ensure that investment in Farm Bill 
conservation programs is achieving conservation goals, helping to 
reduce greenhouse gas emissions and increasing terrestrial carbon 
sequestration.
    Example legislation: Healthy Fields and Farm Economies Act (H.R. 
4751) (https://www.congress.gov/bill/115th-congress/house-bill/4751)
    Thank you for providing the opportunity to provide testimony for 
the record that will help to address our current climate crisis. We 
commend the Select Committee on its vital work.
            Sincerely,
                                              Mary Pfaffko,
                                      Private Lands Policy Analyst.

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                            October 30, 2019

 Climate Mitigation Through Agricultural Productivity, Innovation, and 
                                 Trade

                       the breakthrough institute
    Despite calls for radical transformation of American agriculture 
from many critics, American farmers are currently some of the most 
productive and environmentally friendly producers in the world. 
Congress should double down on the many existing strengths of the US 
agricultural system, most notably by seeking to increase productivity, 
research and development (R&D) funding, and global exports.
    Farmers are America's unsung environmental and climate stewards. 
Increases in farm productivity over the past half-century have made 
American producers some of the highest yielding in the world. US corn 
farmers, for example, produce roughly 4.9 tons of corn per acre, 
whereas French farmers produce about 3.9 tons, and Chinese farmers 
produce 2.75 tons.\1\
---------------------------------------------------------------------------
    \1\ FAOSTAT (2019).
---------------------------------------------------------------------------
    Due in large part to farmers' high yields and the efficiency with 
which they use resources, the US uses less land and produces less 
greenhouse gas (GHG) emissions per unit of food or beverage than most 
other countries. For example, the US emits roughly 25% and 50% less GHG 
emissions per pound of beef produced than the UK and Mexico, 
respectively.\2\
---------------------------------------------------------------------------
    \2\ FAOSTAT (2019).
---------------------------------------------------------------------------
    Considering US agriculture and policy options from a global 
perspective reveals that American farmers have not only been reducing 
domestic, but also international emissions. The US is the number one 
agricultural exporter in the world, exporting more than 20% of its 
production. These exports cut global emissions by reducing the amount 
of food that would be produced in other countries with less efficient 
production systems.\3\ For example, the US exported almost 72,000 tons 
of beef to the Republic of Korea in 2017. If that beef was produced 
locally in Korea--where beef production is 25% more emissions intensive 
than in the US--it would release an additional 300,000 tons of CO2 
equivalent.\4\ If the US were to increase agricultural exports to 
regions with less efficient farm systems, the impact on global 
emissions could be even higher.
---------------------------------------------------------------------------
    \3\ USDA ERS (2018). FAQ. https://www.ers.usda.gov/faqs/
    \4\ FAOSTAT (2019).
---------------------------------------------------------------------------
    US public R&D is what makes the farm sector's productivity and 
global environmental benefits possible.\5\ USDA economists estimate 
that investing in agricultural R&D has reduced GHG emissions at a cost 
of $8-13 per ton of CO2 equivalent. For reference, conservation 
programs such as the Environmental Quality Incentives Program have 
reduced emissions at an estimated cost of $14 to $75 per ton.\6\ Our 
preliminary research, in partnership with Purdue University, indicates 
that doubling R&D funding would reduce global emissions from crop 
production by more than 100 million metric tons of CO2 equivalent per 
year by 2050.\7\ That is equivalent to cutting current US enteric 
fermentation from cattle--or cow burps--by two-thirds.\8\
---------------------------------------------------------------------------
    \5\ Wang, S. L., Heisey, P., Schimmelpfennig, D., & Ball, V. E. 
(2015). Agricultural productivity growth in the United States: 
Measurement, trends, and drivers. Economic Research Service, Paper No. 
ERR-189. https://www.ers.usda.gov/webdocs/publications/45387/
53416_err189_summary.pdf?v=42212.
    \6\ Jones, C. A., Nickerson, C. J., & Heisey, P. W. (2013). New 
uses of old tools? Greenhouse gas mitigation with agriculture sector 
policies. Applied Economic Perspectives and Policy, 35(3), 398-434. 
Note: CO2eq are in metric tons.
    \7\ Working paper available upon request.
    \8\ US EPA. (2019). Inventory of U.S. Greenhouse Gas Emissions and 
Sinks: 1990-2017 https://www.epa.gov/sites/production/files/2018-01/
documents/2018_chapter_5_agriculture.pdf.
---------------------------------------------------------------------------
    Increasing US R&D funding can also help other countries make their 
agricultural sectors more environmentally friendly. Our research 
indicates that sharing US agricultural knowledge and innovations 
internationally, as the US has done for decades, can approximately 
double the climate benefits of increasing R&D.\9\ By maintaining a 
trade and IP regime that increases exports not just of food, but also 
agricultural knowledge and technology, the US could become a global 
leader for environmentally beneficial and highly productive 
agriculture.
---------------------------------------------------------------------------
    \9\ Working paper available upon request.
---------------------------------------------------------------------------
    On top of its environmental potential, investing in R&D benefits 
American farmers and consumers across the globe. Increasing R&D funding 
would help American farmers cut their production costs and compete in 
an increasingly challenging global market. Moreover, by reducing global 
food prices, investments in R&D improve the nutrition and health of 
millions of urban poor.\10\
---------------------------------------------------------------------------
    \10\ Baldos, U. L. C., & Hertel, T. W. (2016). Debunking the `new 
normal': Why world food prices are expected to resume their long run 
downward trend. Global Food Security, 8, 27-38.
---------------------------------------------------------------------------
    Taking a global perspective to mitigating agricultural emissions 
also leads to new and creative ideas. For instance, as corn producers 
are discontented with current ethanol demand, instead of subsidizing 
ethanol production, the US government could incentivize those farmers 
to sell surplus corn to foreign markets.
    Historic growth in farm productivity has curbed emissions from US 
agriculture. To continue this overly positive trend, Congress should 
not attempt to reorganize a system from scratch. Instead, the US 
government ought to prioritize the factors responsible for past 
environmental improvements, namely, innovation driven by public R&D and 
global exports.
    For More Information:
    Dan Rejto, Associate Director of Food and Agriculture, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4327222d2a262f03372b262131262228372b312c36242b6d2c31246d">[email&#160;protected]</a>

                       Submissions for the Record

                      Representative Garret Graves

                 Select Committee on the Climate Crisis

                            October 30, 2019

    ATTACHMENT: IPCC, 2014: Climate Change 2014: Synthesis Report. 
Contribution of Working Groups I, II and III to the Fifth Assessment 
Report of the Intergovernmental Panel on Climate Change [Core Writing 
Team, R.K. Pachauri and L.A. Meyer (eds.)]. IPCC, Geneva, Switzerland, 
151 pp.
    The submission for the record reference can be found on Page 100 of 
the report; the full report is retained in the committee files and 
available at: https://archive.ipcc.ch/pdf/assessment-report/ar5/syr/
SYR_AR5_FINAL_full_wcover.pdf

    ATTACHMENT:

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    This graphic is retained in the committee files.
    ATTACHMENT:

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The chart is retained in the committee files. The data for this 
chart (2014-2017) was compiled from a 2018 report; the report from 
which the data was pulled is retained in committee files and available 
at: https://ww2.energy.ca.gov/almanac/petroleum_data/statistics/
2018_foreign_crude_sources.html.

    ATTACHMENT: Everly, Steve. ``Why Natural Gas from Putin's Russia 
Has to Be Imported to New England.'' Washington Examiner, 24 March 
2018.
    The article is retained in the committee files and available at: 
https://www.washingtonexaminer.com/opinion/op-eds/why-natural-gas-from-
putins-russia-has-to-be-imported-to-new-england.

    ATTACHMENT: Letter from Sens. Maria Cantwell, Robert Menendez, 
Chuck Schumer, and Ed Markey to President Trump, 23 May 2018.
    This letter is retained in the committee files and available at: 
https://www.democrats.senate.gov/imo/media/doc/Oil.pdf.

                 United States House of Representatives

                 Select Committee on the Climate Crisis

                      Hearing on October 30, 2019

      ``Solving the Climate Crisis: Opportunities in Agriculture''

                        Questions for the Record

                      Jennifer Moore-Kucera, Ph.D.

                      Climate Initiative Director

                        American Farmland Trust

                       the honorable kathy castor
1. Currently, most agricultural conservation programs that can help 
        sequester carbon are practice-based, meaning that funding is 
        provided based on the adoption of certain techniques as opposed 
        to the achievement of specific performance metrics. How could 
        we move from a practice-based to a performance-based system to 
        ensure that the estimated carbon drawdown is occurring at 
        predicted levels?
    While the scientific community has consistently demonstrated the 
carbon sequestration benefits of various soil practices, additional 
research is needed to ensure that anticipated outcomes more fully align 
with actual performance. Shifting to a performance-based system would 
require additional data and data standardization as well as 
improvements in modeling and testing technology.
    A crucial step towards these goals could be the establishment of a 
national agricultural sequestration quantification program. Models of 
such programs exist from other countries such as Australia and Canada 
(see Paustian et al., 2019 for details) and could be used as a template 
for the US to modify and improve upon. A national sequestration 
quantification program would strengthen the ability of our nation to 
project outcomes, inform recommended practices, and provide 
policymakers with a greater understanding of how to maximize limited 
public dollars. Coordinated through current USDA agencies (primarily 
NRCS and ARS), this program would develop the necessary components for 
assessment, interpretation, and implementation as outlined below.
Assessment
    <bullet> Develop standardized methodology for both soil sampling 
and carbon measurements. Currently, the most accepted approach is to 
monitor changes in soil carbon stocks (Paustian et al., 2019). A 
standardized methodology should include a focus on using appropriate 
tools to evaluate management impacts on soil carbon stocks and dynamics 
at different scales (e.g., field, farm, and region).
    <bullet> Establish a standardized approach for fully evaluating and 
cataloguing management history. This step is critical for proper 
interpretation.
    <bullet> Support research into the development of new, inexpensive, 
novel, in situ (on-site) soil carbon measurement tools that reduce 
assessment costs and labor.
Interpretation
    <bullet> Regionally parametrize acquired data with historical 
management data to provide greater context and identify baselines to 
enable better assessment of changes (Manter, Delgado, & Moore-Kucera, 
2018).
    <bullet> Provide additional or programmatic support of on-farm 
research and grower-driven demonstration programs.
    <bullet> Increase staffing capability and technical training of 
NRCS field staff dedicated to soil sampling, carbon evaluation, carbon 
farm planning, and collection of standardized management history 
information. These data could be preserved in public databases such as 
the current ARS-AgCROS (Agricultural Collaborative Research Outcomes 
System) database system (Delgado et al., 2019).
    <bullet> Develop a soil sample repository that can facilitate 
cutting-edge soil carbon quantification tools. These tools will 
ultimately save time and money from field-collected samples sent for 
typical soil carbon estimation. This effort could be expanded to 
include soil health measurements (Manter et al., 2017).
Implementation
    <bullet> Provide dedicated resources and programmatic funding to 
enhance coordination between government agencies within the USDA (e.g., 
between NRCS and ARS). A national network of on-farm demonstration 
sites or long-term monitoring sites could be established in conjunction 
with the development of national soil laboratories dedicated to 
providing consistent and standardized protocols that leverage current 
databases (e.g., SSURGO and AgCROS) and provide open-source, crowd-
sourcing capabilities to expand the knowledge base of practices and 
quantifiable outcomes.
    <bullet> Enhance/secure regionally specific technical assistance to 
develop monitoring and evaluation strategies to determine how 
conservation practice adoption impacts soil carbon stocks.
    <bullet> Develop an approach to reward early adopters who have 
paved the way for wider-spread adoption of carbon sequestration 
practices. For instance, programs could reward producers for 
maintaining practices (to avoid negative reversals), establish 
mentoring programs (for example, farmer-to-farmer learning networks 
where early adopters are paid to train the next wave of adopters), 
develop payment incentives for soil sampling prioritization on sites 
where long-term adoption has occurred, etc.
    Additionally, we need to identify other approaches to help 
sequester carbon. More resources are needed for research into novel 
carbon reducing practices such as biochar and increasing deep-rooted 
plants. Support is also need for plant breeding efforts that increase 
productivity with fewer inputs and produce perennial plants that could 
replace annuals (e.g., Kernza), as well as other cutting-edge 
approaches.
    Other important considerations are the co-benefits of supporting 
agricultural systems for climate mitigation and adaptation to ensure 
food security and address other issues such as flood mitigation and 
buffering temperature extremes. Many soil sequestration practices also 
cut GHG emissions indirectly via reductions to fuel (e.g., fewer passes 
with the tractor with no-till), reduced synthetic fertilizer 
applications (via increased soil organic matter, a natural warehouse of 
nutrients and additions of animal and plant waste via composts and 
through extraction of nutrients via cover crops), and water savings 
(via increased water storage capacity with improved soil organic 
matter).
2. What is the current state of knowledge on the potential of 
        agriculture to reduce U.S. greenhouse gas emissions?
    Agricultural practices, in part, contribute to total greenhouse gas 
(GHG) emissions in the United States (US). The most recent EPA report 
indicates that agriculture releases about 582 million metric tons (MMT) 
of carbon dioxide equivalents (CO<INF>2</INF>e)0F,\1\ which translates 
to approximately 9% of total US emissions (USEPA, 2019). In contrast to 
other production sectors, which are dominated by energy-related 
CO<INF>2</INF> emission sources, the bulk of agriculture's impact on 
climate change is due to nitrous oxide (N<INF>2</INF>O) and methane 
(CH<INF>4</INF>) emissions from fertilizer application, manure 
handling, and enteric fermentation from livestock (USEPA, 2019).
---------------------------------------------------------------------------
    \1\ CO<INF>2</INF>e refers to the carbon dioxide equivalent, 
because methane (CH<INF>4</INF>) and nitrous oxide (N<INF>2</INF>O) are 
converted to their CO<INF>2</INF> equivalent, in terms of their global 
warming potential.
---------------------------------------------------------------------------
    With over 396 million acres of cropland and 440 million acres of 
pastureland in the US, there are numerous practices that have the 
potential to reduce US GHG emissions and sequester carbon. Based on 
current adoption of cover cropping and conservation tillage practices 
(no-till or reduced till), it is estimated that US cropland has reduced 
GHG emissions between 64.5 to 78.5 million metric tons (tonnes) of 
CO<INF>2</INF>e per year with much more potential with widespread 
adoption of these practices. Adoption of other conservation practices, 
already established and promoted by NRCS, can lead to even greater 
reductions.
    Table 1 (below) summarizes GHG reduction potential estimates of key 
NRCS conservation practices as calculated using the Carbon Reduction 
Potential Evaluation (CaRPE) Tool developed by me in collaboration with 
USDA-ARS scientist, Dr. Daniel Manter. To calculate these values, we 
coupled data from the 2017 USDA AgCensus with county-level emission 
reduction values provided by the COMET Planner Tool (developed by 
Colorado State University and USDA-NRCS) and scaled to a national 
level. By combining practices such as conservation tillage with cover 
cropping, US croplands have the potential to reduce emissions by 338 
million metric tons CO<INF>2</INF>e per year. If nutrient management is 
added, these lands could reduce emissions by 508 million metric tons 
CO<INF>2</INF>e per year.1F \2\ While this number assumes the highly 
unlikely case of universal practice adoption, it nonetheless 
underscores the vast potential of our croplands to serve as carbon 
sinks since removing 508 million metric tons of CO<INF>2</INF>e per 
year is equivalent to eliminating 87 percent of US agriculture's GHG 
footprint.
---------------------------------------------------------------------------
    \2\ Our estimates are in accordance with an earlier report by Lal 
et al. (1998) who estimated approximately 360 million metric tons 
CO<INF>2</INF>e per year on US croplands.
---------------------------------------------------------------------------
    Moreover, there are numerous management practices that can be 
implemented on grazing lands as well as restoration of degraded lands 
that can contribute to further reductions. For example, combining 
prescribed grazing and nutrient management practices on grazing lands 
can reduce GHG emissions up to 56 million metric tons CO<INF>2</INF>e 
per year with substantially more potential with rangeland plantings 
(Table 1). Again, these estimates assume complete adoption on all 
agricultural lands, and thus, a plan that projects phased-in adoption 
rates should be considered to hit targets along the way (e.g., see 
Chambers, Lal, & Paustian, 2016).
    In summary, if the best carbon sequestering practices for croplands 
and grazing land are implemented, US agriculture would be significantly 
closer to Carbon neutral and could even have a net negative Carbon 
footprint.

 TABLE 1.--EXAMPLES OF CROPLAND AND GRAZING LAND CONSERVATION PRACTICES
      AND GREENHOUSE GAS (GHG) EMISSION REDUCTION POTENTIAL FOR US
                           AGRICULTURAL LANDS
[Based off 2017 AgCensus data and emission coefficients from USDA COMET-
                                planner]
------------------------------------------------------------------------
                                                           GHG Reduction
                                                             Potential
                  Conservation practice                      (million
                                                            metric tons
                                                          CO2e per year)
------------------------------------------------------------------------
Single Cropland Practices:
    Conservation tillage practices......................          63-197
    Cover cropping......................................          99-140
    Conservation crop rotation..........................              91
    Stripcropping.......................................              82
    Nutrient management.................................          23-145
Combined Cropland Practices:
    Conservation tillage plus cover cropping............         266-338
    Conservation tillage plus cover crop plus compost...         367-508
Grazing Land Practices:
    Prescribed grazing..................................             6.2
    Nutrient management.................................       10.2-55.5
    Range planting......................................             147
    Silvopasture........................................             324
------------------------------------------------------------------------

                             reference page
    Chambers, A., Lal, R., & Paustian, K. (2016). Soil carbon 
sequestration potential of US croplands and grasslands: Implementing 
the 4 per Thousand Initiative. Journal of Soil and Water Conservation, 
71(3), 68A-74A. https://doi.org/10.2489/jswc.71.3.68A
    Delgado, J. A., Vandenberg, B., Neer, D., & D'Adamo, R. (2019). 
Emerging nutrient management databases and networks of networks will 
have broad applicability in future machine learning and artificial 
intelligence applications in soil and water conservation. Journal of 
Soil and Water Conservation, 74(6), 113A-118A. https://doi.org/10.2489/
jswc.74.6.113A
    Lal, R., J.M. Kimble, R.F. Follett, and C.V. Cole. 1998. The 
potential of U.S. cropland to sequester carbon and mitigate the 
greenhouse effect. Sleeping Bear press, Inc., Chelsea.
    Manter, D K, Delgado, J. A., & Moore-Kucera, J. (2018). Integrated 
soil health management: a framework for soil conservation and 
regeneration. In D. C. Reicosky (Ed.), Managing Soil Health for 
Sustainable Agriculture (1st ed., Vol. 1, p. 352). https://doi.org/
https://doi.org/10.1201/9781351114530
    Manter, Daniel K, Delgado, J. A., Blackburn, H. D., Harmel, D., 
Perez de Leon, A. A., & Honeycutt, C. W. (2017). Opinion: Why we need a 
National Living Soil Repository. Proceedings of the National Academy of 
Sciences, 114(52), 13587-13590. https://doi.org/10.1073/pnas.1720262115
    Paustian, K., Collier, S., Baldock, J., Burgess, R., Creque, J., 
DeLonge, M., . . . Jahn, M. (2019). Quantifying carbon for agricultural 
soil management: from the current status toward a global soil 
information system. Carbon Management, 10(6), 567-587. https://doi.org/
10.1080/17583004.2019.1633231

                        Questions for the Record

                               Tina Owens

           Sr. Director, Agriculture Funding & Communication

                          Danone North America

    Dear Chair Castor and Ranking Member Graves: Attached is our 
response to the follow up question from the 10/30 Select Committee 
Question for the Record. Please note that we have collaborated with 
Scientist Steven Apfelbaum via our mutual collaboration with Green 
America to provide the scientific basis for the responses submitted in 
the attached letter, and would like to note these associations in the 
record.
            Sincerely,
                                        Tina Owens,
         Sr. Director, Agriculture Funding & Communication,
                                              Danone North America.
                       the honorable kathy castor
1. If the agricultural sector currently contributes approximately 9% of 
        total greenhouse gas emissions in the United States, how much, 
        or under what scenarios, can agriculture potentially turn into 
        a carbon sink and contribute to climate mitigation?
    Ecosystem carbon sampling modeled by Steven Apfelbaum/Applied 
Ecological Solutions demonstrates:
          1. A number of scientific studies have concluded that, with 
        its abundance of crop and pasture land, US agricultural land 
        has significant potential to contribute to our overall goal of 
        sequestering carbon.[i]
          2. With over 1.04 billion acres of cropland and pastureland, 
        the US has the potential to sequester anywhere from 25 billion 
        tons of carbon to 50 billion tons by 2050.[ii] The range 
        depends on how quickly we scale and could go even higher if the 
        rate of adoption increases for stacks of soil health practices, 
        sometimes called regenerative agriculture. Thus, the U.S. can 
        play a leadership role, by owning a significant percentage of 
        the total drawdown goal.
          3. That soil-carbon in cropland and pastureland is durable 
        across time and weather conditions.[iii] Meaning that the 
        carbon remains in the soil once sequestration is achieved.
    There is broad consensus regarding which best management practices 
(BMPs) are the most important to optimize. These practices are also 
central to the USDA's 5 Principles of Soil Health:

                   Recommendations for Prioritization

    1. Prioritize soil health as the key focus in the carbon 
sequestration ``pillar'' of climate solutions.
    2. Align policy and public programs to support farmers going `all-
in' for soil health, specifically the rapid transition to best 
management practices for soil health.
    3. Support outcomes-based measurements some of which are already 
underway and supported by farmers, soil scientists, and supply chains. 
Examples of these would include the approved VERRA VM0021 and the Soil 
Carbon Index standard currently in its pilot stage.
    4. Simultaneously support research to help speed climate and 
economic benefits along with implementation of a nationwide shift to 
`all-in' soil health.
                      the honorable garret graves
1. Ms. Owens, I really appreciate you coming in today because it helps 
        us remember what the end state of agriculture looks like after 
        going through the supply chain. You mentioned in your testimony 
        the need for continued U.S. leadership and innovation in 
        climate sustainability in agriculture.
            a. Your company is a global one, so can you give some 
                    insight as to how important these farming practices 
                    are for your company when selecting suppliers?
    Danone North America buys directly from more than 700 American 
farms across the country for our most important ingredient--milk. 
Rather than categorizing these farms as suppliers we view them as 
farmer partners, and as such we work hand-in-hand to provide them with 
unique financial tools and opportunities to convert their practices to 
impact soil health.
    In 2018 Danone North America launched a five-year, $6 million Soil 
Health Initiative to help our farmer partners to restore the ability of 
soil to capture carbon and overcome common obstacles to building soil 
health management systems. We are currently tracking over 50,000 acres 
with plans to expand to 100,000 acres by 2022.
    While we believe this program to be impactful, we are not able to 
scale full adoption of these practices for the future without 
challenging the current systems of agriculture that reward practices 
from the past. This program, which targets both economic resilience and 
environmental impact, is a strong starting point for Congress to 
develop complementary policy options to incentivize and assist farmers 
and their partners for lasting impact at a nationwide scale.
            b. Are developing countries like China and India 
                    prioritizing long term soil health and carbon 
                    sequestration?
    While other countries will have to do their part as well, 
especially countries with large tracts of agricultural cropland such as 
Russia, Brazil and China, the US should move quickly to get `first 
mover advantage' and scale the adoption of stacks of soil health 
practices.
            2. Do you think showing that the farming practices we adopt 
                    here are low-cost, highly-productive, and improve 
                    long-term soil health can be a good model for other 
                    nations?
    By moving quickly we will ensure economic advantages for our 
farmers, rural revitalization, weather protection and resiliency and 
secure our domestic food production. This will, in turn, become a model 
for other nations.
                                 ______
                                 
    Thank you for the opportunity to address the questions of the 
Committee. We will continue our work hand-in-hand with our farmer 
partners and welcome continued collaboration with the Committee on the 
significant policy and implementation potential at hand.
                                                 December 20, 2019.
    Dear Chair Castor and Ranking Member Graves: Thank you again for 
the opportunity to present our points of view at the recent hearing 
``Solving the Climate Crisis: Opportunities in Agriculture'' on October 
30, 2019. In addition to our testimony, we are responding to the 
questions of the Committee regarding the size of the opportunity for 
carbon sequestration in soil, under what scenarios could agriculture 
become a `carbon sink', where we are now relative to that opportunity 
and how to prioritize this opportunity given America's economic 
interests and environmental interests.
    Simply put, the size of the opportunity is enormous. Globally, 
agriculture as a whole could remove at least 400 billion tons of carbon 
dioxide (CO2) over thirty years.<SUP>i</SUP> This is roughly the 
equivalent of 100 parts per million (ppm) of atmospheric carbon, which 
currently stands at roughly 415 ppm (NOAA).
                        size of the opportunity
    Rigorous soil carbon studies clearly and conservatively document 
that all cropland and pastureland can increase soil carbon by at least 
2% over baseline conditions under improved land management practices 
optimized for soil health. These practices simultaneously save farmers 
and ranchers money, provide flood and drought protection, reduce 
erosion, improve water quality for rivers, lakes, and coastal zones, 
and improve overall resiliency.<SUP>ii</SUP> Further ecosystem carbon 
sampling modeled by Steven Apfelbaum/Applied Ecological Solutions shows 
that soil-carbon in cropland and pastureland is durable across time and 
weather conditions.<SUP>iii</SUP> This means that significant carbon 
remains in the soil once sequestration in healthy soil is achieved 
through improved land management practices optimized for soil health.
    A number of scientific studies have concluded that US agricultural 
land, with its abundance of crop and pasture land, has the greatest 
potential to contribute to our overall goal of sequestering 
carbon.<SUP>iv</SUP>
    With over 1.04 billion acres of cropland and pastureland, the US 
has the potential to sequester anywhere from 25 billion tons of carbon 
to 50 billion tons by 2050.<SUP>v</SUP> The range depends on how 
quickly we scale and could go even higher if the rate of adoption 
increases with robust soil health practices optim. Thus, the U.S. can 
play a leadership role, by owning a significant percentage of the total 
drawdown goal.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    By moving quickly we will ensure economic advantages for our 
farmers, rural revitalization, weather protection and resiliency and 
secure our domestic food production.
    There is increasing momentum among global food brands to secure 
their supply chains, to identify suppliers that have addressed their 
own climate risk and who align with the corporate ESG (Environmental, 
Social, and Governance) targets. US farmers have the size, the skill, 
the technology, and the infrastructure to dominate an emerging climate 
positive commodity market.
               farmer economic resiliency and opportunity
    Beyond scientific studies, farmers using robust soil management 
practices experience even greater rates of soil carbon accumulation. 
Case studies collected from numerous farmers and ranchers across the 
U.S. who go `all-in' on soil health, achieve significant climate, 
environmental, farming economics and rural community results in as 
short as 3-4 years.<SUP>vi</SUP> Furthermore, farmers practicing these 
principles increase net profit on average by $100-$150/
acre.<SUP>vii</SUP>
    With much of U.S. agricultural soils coming in at 1% or less soil 
carbon, recent sampling studies conducted by both scientists and 
companies found that among farmers practicing robust soil health 
practices, a stacking of best management practices for soil health, 
soils presented with between 3 to 6% soil carbon. (Williams, Indigo).
          which agriculture practices do we need to encourage?
    There is broad consensus regarding which best management practices 
(BMPs) are the most important to optimize. These practices are also 
central to the USDA's 5 Principles of Soil Health:

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   recommendations for prioritization
    1. Prioritize soil health as the key focus in the carbon 
sequestration ``pillar'' of climate solutions.
    2. Align policy and public programs to support farmers going `all-
in' for soil health, specifically the rapid transition to best 
management practices for soil health.
    3. Support outcomes-based measurements some of which are already 
underway and supported by farmers, soil scientists, and supply chains. 
Examples of these would include the approved VERRA VM0021 and the Soil 
Carbon Index standard currently in its pilot stage.
    4. Simultaneously support research to help speed climate and 
economic benefits along with implementation of a nationwide shift to 
`all-in' soil health.
    It is abundantly clear, based on what we already know about 
improved soil health management, we can continue to optimize for better 
and faster results as the research brings new data forward.
    The urgency of the climate crisis calls us to get started now. The 
economic benefits and weather protections for our farmers and rural 
communities calls us to accelerate our efforts immediately.
    We are honored to follow up with the Committee on the question of 
potential rates of carbon sequestration. We welcome any and all follow 
up relative to the size of the soil-carbon opportunity, the speed of 
scale-up, and the positive farm economic impacts.
            Sincerely,
                                   Chris Adamo,
                                           Vice President, Federal & 
                                               Industry Affairs, Danone 
                                               North America.
                                   Alisa Gravitz,
                                           President and CEO, Green 
                                               America.
                                   Steven Apfelbaum, Ph.D.,
                                           Scientist, Author & Chair, 
                                               Applied Ecological 
                                               Services, Inc.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                               

                               references
    <SUP>[i]</SUP> Zomer, R.J., Bossio, D.A., Sommer, R. et al. Global 
Sequestration Potential of Increased Organic Carbon in Cropland Soils. 
Sci Rep 7, 15554 (2017) doi:10.1038/s41598-017-15794-8.
    <SUP>[ii]</SUP> Apfelbaum, Steven AMP Grazing/Low Disturbance 
Cropping data. Presentation.
    <SUP>[iii]</SUP> Apfelbaum, Steven, ``How Durable is Soil Carbon,'' 
Presentation, Eco System Carbon Durability.
    <SUP>i</SUP> Lal, Rattan, ``Conceptual basis of managing soil 
carbon: Inspired by nature and driven by science,'' Journal of Soil and 
Water Conservation 74(2):29A-34A, 2019.
    <SUP>ii</SUP> Apfelbaum, Steven, Teague, Richard et al, AMP Grazing 
Presentation, November 2019.
    <SUP>iii</SUP> Apfelbaum, Steven, ``How Durable is Soil Carbon,'' 
Presentation, Eco System Carbon Durability.
    <SUP>iv</SUP> Zomer, R.J., Bossio, D.A., Sommer, R. et al. Global 
Sequestration Potential of Increased Organic Carbon in Cropland Soils. 
Sci Rep 7, 15554 (2017) doi:10.1038/s41598-017-15794-8.
    <SUP>v</SUP> Apfelbaum, Steven AMP Grazing/Low Disturbance Cropping 
data. Presentation.
    <SUP>vi</SUP> Case Studies on Soil Health Practices, Farmers Rick 
Clark (IN), Will Harris (GA), Adam Chappell (AR), compiled by Green 
America.
    <SUP>vii</SUP> Hatfield, Jerry, USDA/ARS, Soil Health Presentation 
Iowa City, June 2019.
    <SUP>viii</SUP> W.R. Teague, S. Apfelbaum, R. Lal, U.P. Kreuter, J. 
Rowntree, C.A. Davies, R. Conser, M. Rasmussen, J. Hatfield, T. Wang, 
F. Wang and P. Byck, ``The role of ruminants in reducing agriculture's 
carbon footprint in North America,'' Journal of Soil and Water 
Conservation March/April 2016 vol. 71 no. 2 156-164.

                        Questions for the Record

                               Fred Yoder

                      Corn, Soybean & Wheat Farmer

                   Co-Chair, Solutions from the Land 

                      the honorable garret graves
1. As a farmer, you have the EQIP and CSP farm bill programs, co-ops, 
        and other ways to get help and funding for conservation 
        purposes on your land, so I'm curious as to why more farmers 
        aren't participating.
            a. What are the biggest barriers?
    A big challenge is the shortage of staff at NRCS, which are charged 
to put these plans together for the farmer. They are the only ones at 
USDA who actually have to visit the farms themselves. Here in Ohio, at 
least, are counties that don't even have a representative from NRCS to 
facilitate applications. I have heard of wait times for an NRCS rep to 
be as long as 2 years for a nutrient management plan, or a wetland 
designation. Perhaps using contract representatives such as Certified 
Crop Advisors could alleviate the backlog of requests for help. Also, 
it depends on what outcome you are looking for. For instance, the 
adoption of cover crops are not emphasized much at all, nor is there a 
specific program to incentivize adoption, as well as no-till practices. 
Also, why tie everything up with NRCS? How about considering offering 
discounts to those who use Federal Crop Insurance that use practices 
that make them less of a risk than status quo? It happens all of the 
time in the insurance world, granting discounts if the client 
demonstrates a reduction of risk by performing various tasks.
            b. Can you talk a bit more about the importance of 
                    precision ag technology, and then discuss the 
                    barriers to this technology being deployed? (like 
                    lack of broadband)
    Today, most new technologies coming with the newest precision tools 
are tied directly to access to broadband services as well as satellite 
and/or phone service. There are places in rural America that don't even 
have cell phone coverage. This can put farmers at a tremendous 
disadvantage based on where their farm is located. This can mean the 
difference of staying in business or being forced out of farming.
            c. What have you heard from other farmers about their 
                    issues with broadband and internet access?
    I have visited with farmers in places like rural Iowa, where the 
soils are rich and productive who complain they can't even purchase 
certain technologies because of lack of access of broadband or 
satellite coverage. If the US is to be the breadbasket of the world, 
and the leader in technology, this is embarrassing.
    I would be glad to answer any other questions that the committee 
may have. Please let me know what those questions may be and I will 
answer them as best as I can.
            Best regards,
                                                        Fred Yoder.

                        Questions for the Record

                               Viral Amin

           Vice President, Commercial Development & Strategy

                          DTE Energy Resources

                      the honorable garret graves
1. Can you elaborate on the environmental benefits that RNG can deliver 
        today?
    First and foremost, renewable natural gas (RNG) projects capture 
methane that would otherwise be released into the atmosphere or flared. 
RNG can be used as a fuel replacement in trucks, buses and cars that 
are otherwise fueled by traditional fossil fuels. When compared to 
diesel fuel, these vehicles have substantially fewer emissions of other 
air pollutants like sulfur dioxide, nitrogen oxides and particulates. 
Moreover, the transportation sector is now the leading sector source of 
CO<INF>2</INF> emissions in the U.S., and the use of RNG is alternative 
fuel vehicles provides a proven, cost-effective option for lowering the 
carbon footprint of the heavy-duty transportation fleet. Finally, the 
process used to produce dairy RNG can significantly reduce odor and the 
number of pathogens within the manure.
2. Can you describe why you believe RNG can be a long-term solution for 
        reducing emissions from the transportation sector, even for 
        those who are seeking deep decarbonization?
    RNG provides both an immediate-term and a long-term solution for 
reducing transportation emissions when it is used to power Natural gas 
vehicles. As electric vehicle battery technology continues to mature, 
heavy duty CNG/LNG trucks running on RNG are achieving cost-effective 
emission reductions today. RNG produced from DTE's agricultural 
projects, when used as a vehicle fuel, results in a lower carbon 
footprint than using electric vehicles. This is due to the fact that 
these projects don't just provide lower-carbon energy by displacing 
fossil fuels, they also prevent methane from entering our atmosphere.
3. Is it possible for you to partner with small and medium farms?
    Although there is no precise formula for how big or small a farm 
must be to support an RNG project, DTE has developed projects in 
partnership with farms between 1,500 to 10,000 cows. Even smaller farms 
could be viable if they are located in close proximity to an existing 
RNG project, digester, or the necessary pipeline infrastructure.
    Also, if several small farms were located adjacent to one another, 
a large digester might be constructed to serve them all.
4. Can you think of ways USDA and EPA can assist dairy operators and 
        swine producers to move toward RNG through the use of anaerobic 
        digesters?
    Congress should work closely with the EPA and USDA to demonstrate 
continued support for the cellulosic biofuels category under the 
Renewable Fuels Standard (RFS). RNG production has grown at more than 
30% per year since qualifying as cellulosic fuel under the RFS, and 
there remains considerable untapped potential to create RNG with the 
waste produced by dairy and swine farms. Creating RNG from waste 
materials is a real success story of the RFS. It helps farmers and 
results in substantial reductions in greenhouse gases.
    Additional ways that the EPA and USDA could support dairy and swine 
RNG projects include:
          <bullet> Providing additional incentives for the use of low-
        carbon fuels and the deployment of natural gas-powered vehicles
          <bullet> Invest research funding to support the advancement 
        of RNG technologies
          <bullet> Promoting the installation and adoption of anaerobic 
        digester and nutrient recovery technologies through new or 
        existing grant programs.
5. Infrastructure, specifically natural gas pipelines, are a necessary 
        component for getting renewable natural gas into the gas 
        stream.
            a. Can you elaborate on the necessity of these pipelines in 
                    order for RNG?
    DTE transports RNG from farms in two ways: Directly, via a pipeline 
lateral connecting to the interstate pipeline system, and by trucking 
the RNG to an existing pipeline interconnect. There are limits to the 
distance RNG can be trucked before it becomes uneconomic. Therefore, 
proximity to pipeline infrastructure is often critical to the 
successful development of an RNG project.
            b. What are the biggest barriers you are experiencing in 
                    the context of infrastructure?
    DTE continues to see growth opportunities in the RNG market using 
the existing pipeline infrastructure. However, pipelines are a more 
efficient and a less carbon intensive means of moving the RNG to 
market.
    The existence of a nearby pipeline is often necessary to make an 
RNG project economically viable. Therefore, additional pipeline 
infrastructure would likely increase the number of RNG projects and 
increase the volume of RNG brought to market.
6. In your testimony you mentioned that using RNG as a fuel replacement 
        in vehicles results in a lower carbon footprint than using 
        electric vehicles. Will you elaborate on this?
    The use of RNG as a vehicle fuel, and especially RNG from 
agricultural waste, can result in a lower carbon footprint than using 
electric vehicles. This is due largely to the fact that agricultural 
waste-to-RNG projects can capture and destroy methane that would have 
otherwise been emitted to the atmosphere. According to the 
Intergovernmental Panel on Climate Change, methane has a global warming 
potential that is 25 times more potent than CO<INF>2</INF>.
    An RNG project's Carbon Intensity (CI) score can provide a more 
specific comparison. CI is a metric used by the State of California's 
Air Resources Board (CARB) to measure the lifecycle greenhouse gas 
emissions for a fuel, per unit of transportation energy delivered. The 
lowest overall CI scores granted by CARB have been for dairy and hog 
waste-to-RNG projects, which have negative carbon footprints and 
substantially lower CI scores than electric vehicle pathways scored by 
CARB.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
